    Effectiveness of the Department’s Financial Management 

         Support System Oracle 11i Re-Implementation 


                                  FINAL AUDIT REPORT

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. Section 552), reports issued by
the Office of Inspector General are available to members of the press and general public to the
extent information contained is not subject to exemptions in the Act.




                                    ED-OIG/A11F0005 

                                       June 26, 2007 





 Our mission is to promote the                                        U.S. Department of Education
 efficiency, effectiveness, and                                          Office of Inspector General
 integrity of the Department’s                              Information Technology Audits Division
 programs and operations.                                                           Washington, DC
Effectiveness of Department FMSS O11i Re-Implementation                   Final Audit Report
                                                                         ED-OIG/A11F0005


                                      Table of Contents


Executive Summary …………………………………………………………………………                                                 2

Objectives, Scope, and Methodology ………………………………………………………                                       4

Background ………………………………………………………………………………….                                                    5

Audit Results ………………………………………………………………………………...                                                7

Improvements Needed to Project Management
Planning, Execution, and Control ………………………………………………………….                                       8

    Performance Measurement Baselines Were Insufficient and Inadequately Controlled ….      8
    Uncontrolled Project Work Delays Increased Project Risks ……………………………..                 13
    Project Contract Monitoring Was Inadequate ……………………………………………                           15
    IT Capital Planning and Investment Oversight Was Ineffective …………………………                17

    Recommendations ..…………………………………………………………………….….                                        22

List of Figure & Tables

    Figure 1: Phased Testing Framework ……………………………………………………                                 7
    Table 1: Example of Performance Measures With Limited Value ………………………                  10
    Table 2: Status of Planned Development Efforts ………………………………………...                      13
    Table 3: Implementation Contractor Reported Significant Schedule Variances ………...      19

Enclosures

    Enclosure A – List of Acronyms 

    Enclosure B – The Ollie Team – Project Management Structure 

    Enclosure C – Summary of System Development Approach for Ollie 

    Enclosure D – Financial Management Support System Planning and Investment 

                  Review Group High Risk Project Briefing, December 14, 2005 

    Enclosure E – Ollie Steering Committee Report, March 31, 2006 

    Enclosure F – Ollie Performance Measurement Log as of January 19, 2006 

    Enclosure G – Annotated Excerpts From IV&V Reports 


Appendix

    Appendix A – Department Response to Draft Audit Report 

    Appendix B – Management Comments and OIG Response 





                                                                                               1
Effectiveness of Department FMSS O11i Re-Implementation                       Final Audit Report
                                                                             ED-OIG/A11F0005


                                    Executive Summary
The Federal Acquisition Streamlining Act of 1994 (FASA) requires agencies to apply a
Performance-Based Management System to their management of major acquisitions. The Office
of Management and Budget (OMB) specifically requires the use of an Earned Value
Management System (EVMS) for major information technology (IT) acquisition projects.
EVMS provides an integrated method for monitoring, measuring, and reporting planned and
actual project or contract cost, as well as schedule and performance outcomes or benefits. In
addition, in 2002, the President’s Management Agenda (PMA) established government-wide
goals to improve federal management and deliver results.

Over the past decade, the U.S. Department of Education (Department) has upgraded its financial
management systems on a number of occasions. The present re-implementation effort was
originally aimed at upgrading and consolidating two separate financial management systems: one
system from the Office of Federal Student Aid (FSA), and the other from the Office of the Chief
Financial Officer (OCFO). The Department, however, abandoned this consolidation plan in
January 2005; thus, we revised our initial audit objectives to focus on the OCFO system.

We conducted our audit to assess the effectiveness of overall project management of the
Department’s Financial Management Support System (FMSS) re-implementation. In particular,
we assessed: (1) the project’s system development methodology to manage system requirements;
(2) the project’s EVMS implementation to control project scope, costs, and schedules;
(3) aspects of contract monitoring, change control, and risk management; (4) the Department’s
use of independent verification and validation (IV&V) services; and (5) the Department’s IT
capital asset management and oversight practices. Our audit scope covered the period February
2005 through April 2006 and focused on the system Design/Build phase from start to scheduled
finish. We also considered the Department’s decision not to consolidate the FSA and OCFO
systems from a change control perspective.

Successful system development requires effective adherence to a system development
methodology, and capitalizes on effective project management controls. Our audit found that the
Department ineffectively carried out several key project management controls. Specifically,
performance measurement baselines were insufficient for accountability, and were not
adequately maintained. Poorly controlled project work delays increased project risks. These
problems occurred initially because the project management team (PMT) and implementation
contractor (IC) did not follow their project management plans. In addition, there was a lack of
effective project monitoring and controls by OCFO Financial Systems Operations (FSO) and
Contracts and Acquisitions Management (CAM) personnel, as well as ineffective oversight by
the investment’s steering committee and the IT capital planning and investment control (CPIC)
processes.

As a result of these weaknesses, the Department’s PMT, including the IC, did not adequately
account for project results, and system development did not meet scheduled expectations. Also,
inaccurate earned value reporting and uncontrolled changes undermined the original project
baselines, which had an adverse and cascading effect on risk management and contract
administration, including improper payments to the IC. Additionally, decision-makers and


                                                                                                   2
Effectiveness of Department FMSS O11i Re-Implementation                         Final Audit Report
                                                                               ED-OIG/A11F0005

stakeholders lacked objective and accurate information about project status for making
investment management decisions.

To correct the weaknesses identified in our review, we recommend that the Chief of Staff direct
the Investment Review Board (IRB) Chair, the Chief Financial Officer (CFO), and the Chief
Information Officer (CIO) to:

1.	 Establish an IV&V services policy to ensure effective IV&V resource usage, and enhance
    existing EVMS and contract monitoring policies and procedures.

2.	 Review the identified contract administration irregularities and project management
    weaknesses within FSO and CAM, and take corrective actions necessary to ensure adherence
    to acquisition policies and project management best practices.

3.	 Coordinate IT investment oversight and monitoring functions across OCFO and the Office of
    the CIO (OCIO), and develop a mandatory project and contract monitoring curriculum for
    project managers responsible for major IT acquisitions, and contracting officers and their
    representatives.

4.	 Direct the IRB Chair to use established or revised CPIC Evaluate and Select procedures to
    determine the best course of action for the FMSS investment, including ensuring OMB,
    GAO, and/or Congress receive sufficient and accurate information with respect to FMSS
    O11i project performance and status.

5.	 Improve IT acquisition and CPIC practices, including expanding the applicability of the
    Evaluate phase, to ensure that investment baselines are sufficient, project controls are
    effective, and performance results information is valid.

6.	 Determine the feasibility and advisability of consolidating system development
    infrastructures Department-wide and offering centralized expert support to development
    projects.

In response to our draft report, the Department stated the OIG recommendations are extremely
useful and will use them to improve the Department’s overall effectiveness in system
implementations. The Department also stated that while it agrees that there are areas for
improvement in the re-implementation project and concurs with many of the findings and
recommendations it is not able to concur with all of the findings and recommendations. In
addition to providing a response to the draft report, the Department described specific actions
and plans to address our concerns in its corrective action plan. For the findings and
recommendations with which the Department did not concur, we have included its response in
the “Findings” section of the audit report. In addition, we have included additional language to
clarify the results of our audit work. Also, in its response to the draft report, management
provided additional information to some recommendations for which it did not concur.

Upon review, we have removed these recommendations in the final report. The Department’s
response is included in its entirety in Appendix A of this report.


                                                                                                     3
Effectiveness of Department FMSS O11i Re-Implementation                                         Final Audit Report
                                                                                               ED-OIG/A11F0005



                           Objectives, Scope, and Methodology
The audit objective was to assess the effectiveness of the overall project management of the
Department’s FMSS re-implementation. In particular, we assessed: (1) the project’s system
development methodology to manage system requirements; (2) the project’s EVMS
implementation to control project scope, costs, and schedules; (3) aspects of contract monitoring,
change control and risk management; (4) the Department’s use of IV&V services; and (5) the
Department’s IT capital asset management and oversight practices.

Our audit scope focused on the system Design/Build phase from start to scheduled finish.
We reviewed project management and performance from the time the Department approved
implementation baselines in February and March 2005 through the end of March 2006.1 We also
considered the Department’s decision not to consolidate the FSA and OCFO financial manage­
ment systems from a change control perspective (this decision preceded the Design/Build phase).
The audit scope included limited assessment of project documentation before and after the
Design/Build phase.

We also focused on the project management responsibilities of key OCFO personnel tasked with
managing, leading, and providing directions to the several project teams and contractors that
comprise the O11ie2 Team (see Enclosure B – O11ie Project Management Structure). These
individuals included the Project Manager (PM), Implementation Lead, Implementation
Coordinator, Change Management Lead, and Contracting Officer’s Representative (COR).
Throughout our report, we use the term project management team to specifically refer to these
key Department employees.3

In reviewing the project’s EVMS, we focused on determining whether the EVMS generally
complied with essential provisions of the American National Standards Institute (ANSI) /
Electronic Industries Alliance (EIA) Standard 748–1998, Earned Value Management Systems
(ANSI/EIA-STD-748).4 Specifically, we assessed whether: (1) the EVMS Performance
Measurement Baseline (PMB) included sufficient details (e.g., schedule interdependencies,
interim measures, clear product specification); (2) changes to the PMB were adequately
controlled; (3) the project periodically determined schedule and cost results by comparing the
earned value and actual costs against the PMB at the cost account level; (4) work results
variances were used to generate forecasts to complete and inform decision-makers; and
(5) performance results and forecast information were adequately communicated to keep
management at all levels apprised of project status.




1
  An enterprise pilot was to mark the end of the Design/Build phase of development. 

2
  O11ie stands for “Oracle 11i Implementation Environment.” “11i” refers to the version of Oracle Federal 

Financials, a commercial off-the-shelf software application that the Department had selected for the upgrade. 

3
  As defined by the project, the PMT also includes the project managers from the three vendors contracted to

provide implementation, project/change management, and IV&V support respectively.

4
  Initially approved May 19, 1998, the standard was reaffirmed on August 28, 2002. 



                                                                                                                     4
Effectiveness of Department FMSS O11i Re-Implementation                                              Final Audit Report
                                                                                                    ED-OIG/A11F0005

In reviewing the Department’s IT capital asset management and oversight practices, we
considered CPIC practices in light of the PMA and associated OMB CPIC and enterprise
architecture guidance.

To accomplish our objective, we performed a review of applicable internal controls. We
interviewed Department officials and contractor personnel, assessed the Department’s internal
guidance,5 and reviewed pertinent federal laws, external criteria, and industry best practices. Our
methodology included the use of an automated data analysis tool, based on the way the PMT and
contractors maintained project baselines (i.e., project scope, costs and schedules, and product
requirements), and measured and tracked changes and performance results.

We conducted our fieldwork at applicable Department offices from June 2005 through
September 1, 2006. On June 22, 2006, we met with the then Acting CFO, the PM, the
Implementation Lead, and other OCFO staff involved in the FMSS re-implementation. During
this meeting, we presented significant preliminary findings regarding management practices over
the Design/Build phase of system re-implementation. We brought these concerns to the attention
of Department officials so that they could take timely corrective action if necessary.

The audit results were discussed with the Deputy Secretary, the Senior Counselor to the
Secretary, the CIO, the Deputy CFO, and other Department officials at a formal exit conference
held on September 5, 2006. We subsequently updated pertinent sections of our Design/Build
analysis, based in part on a request by the Department for the Office of Inspector General to
consider a cutover preparedness report issued by the IV&V contractor.6 We obtained and
assessed selected information the IV&V team had relied on in their report. We also met with
OCIO officials to update CPIC-related information.

The audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.

                                                   Background
Since passage of the Government Performance Results Act of 1993 (GPRA), FASA, and the
Clinger-Cohen Act of 1996 (CCA), the federal government has focused on performance-based
management as a practice critical to the effective acquisition and management of IT capital
assets. For almost a decade, OMB has required agencies to apply a performance-based
management system to their management of major acquisitions, and now OMB specifically
requires an EVMS compliant with ANSI/EIA-STD-748 for all major IT acquisitions.7 OMB
expects agencies to apply a documented, systematic, and integrated method for monitoring,
measuring, and reporting planned and actual project or contract cost, schedule, and performance
outcomes or benefits.

In 2002, the PMA also established government-wide goals to improve federal management and
deliver results. The Budget and Performance Integration initiative aims at improving control
5
    In the form of contract, budget or project plans information, as well as select policy directives. 

6
    IV&V Cutover Readiness Assessment Report, September 26, 2006. 

7
    OMB Circular A-11. 



                                                                                                                          5
Effectiveness of Department FMSS O11i Re-Implementation                                        Final Audit Report
                                                                                              ED-OIG/A11F0005

over resources and accountability by program managers in delivering results. Under the
Expanded Electronic Government initiative, OMB initiated a government-wide analysis of
several lines of business (LoB) to reduce the cost of government and improve services through
the establishment of Shared Service Centers (SSC).8 OMB requires agencies that plan major
grants or financial management (GM-FM) system enhancements to either become an SSC or
migrate existing systems to an established SSC.

The Department’s core mission includes the efficient disbursement of funds to various grantees
and monitoring of fund recipients throughout the life of their grants. OCFO had long envisioned
becoming an SSC under the GM LoB initiative. During our audit, the Department received
OMB approval to become a GM SSC. OCFO was also considering whether to pursue FM LoB
SSC status. Near the end of our fieldwork, OCFO officials stated they would not seek to become
a FM LoB SSC, although they had not established a schedule to migrate to an SSC.

Over the past decade, the Department has upgraded its financial management systems on a
number of occasions. The present re-implementation effort was originally aimed at
consolidating separate FSA and OCFO financial management platforms under a single system,
while upgrading the infrastructure and application software. This effort is referred to as O11ie.9

A project of this magnitude is a significant and complex undertaking. The planned
implementation consisted of a multi-phased, tiered approach. Tier I included high-level
assessments to determine the upgrade’s impact on business processes, custom interfaces,
extensions and reports. Completed in June 2002, Tier I assessments concluded that
consolidation was feasible.

In April 2004, the Department proceeded to award a contract valued at just over $14.5 million10
to an implementation contractor to carry out development and provide post-production testing
and transition support. According to the approved proposal,11 and as illustrated in Figure 1, the
IC would use a four-phased approach to Analyze, Design/Build, Integrate, and Implement the
system and ensure a rigorous testing process.12 The contractor’s iterative Analyze and
Design/Build development approach included a series of conference room pilots (CRP).13




8
  Formerly referred to as Centers of Excellence. An SSC supports multiple agencies, a significant added 

responsibility that requires superior stewardship.

9
   The consolidation was also known as “One Financial.”

10
    O11ie hardware and software costs are not included in this figure. 

11
    Technical Proposal dated February 17, 2004, incorporated by reference in the contract.

12
   Application and Integration (A&I) testing would be conducted during the Integrate Phase, while unit and string

testing would occur throughout the Design/Build phase. 

13
    The Design/Build phase included two conference room pilots (CRP-2 and CRP-3) and an enterprise pilot. 



                                                                                                                     6
Effectiveness of Department FMSS O11i Re-Implementation                                         Final Audit Report
                                                                                               ED-OIG/A11F0005

                                  Figure 1 – Phased Testing Framework




Enclosure C – Summary of System Development Approach for O11ie provides additional
information on the IC’s multi-phased approach, including details about the relationship between
approved project tiers, systems requirements management, and pilot activities.

Two additional contracts were awarded to support O11ie. The first of these two contracts,
valued at about $2.3 million, was awarded to procure project/change management support
services. This contractor provided support to the PMT, and is generally referred to as the Project
Management Office. The second contract, valued at about $5.3 million, was awarded to procure
IV&V services. IV&V would provide proactive, real-time feedback and advice to the PM and
the O11ie Team through written and oral reports. IV&V was to participate in all project-related
meetings. The O11ie Team also included significant Department resources to manage O11ie, or
serve as functional experts or liaisons with interfacing systems and offices.

Prior to the start of our audit, we discovered that the Department had abandoned its goal of
overall consolidation. Instead, FSA would “upgrade-in-place”14 and OCFO would conduct a full
“system re-implementation.”15 According to Department officials and Planning and Investment
Review Group (PIRWG) records, the January 2005 O11ie Steering Committee (Committee)
decision was based on a reassessment of risks at the end of Tier II.

Based on the status of both initiatives at the time of our review, we decided to focus our audit
work exclusively on OCFO’s re-implementation, also known as “FMSS Oracle 11i” (FMSS
O11i). We considered the originally planned consolidation scope only with respect to limited
aspects of change control. We assessed the investment based on OMB guidance and best
practice in performance-based project management, as applied to system development projects.

                                               Audit Results 

We found that the Department did not effectively carry out several key project management
controls. Specifically, performance measurement baselines were insufficient for accountability,
and were not adequately maintained. Poorly controlled project work delays increased project
risks. These problems occurred initially because the PMT and IC did not follow their project

14
   “Upgrade-in-place” refers to an upgrade to a new version of the software without any significant redesign of 

functionality or configuration. 

15
   A “re-implementation” involves an upgrade to a new version of the software accompanied by significant

functionality and/or configuration redesign. 



                                                                                                                     7
Effectiveness of Department FMSS O11i Re-Implementation                                         Final Audit Report
                                                                                               ED-OIG/A11F0005

management plans. In addition, there was a lack of effective project monitoring and controls by
OCFO FSO and CAM personnel, as well as ineffective oversight by the Committee and the IT
CPIC processes.

                       Improvements Needed to Project Management
                            Planning, Execution, and Control

Successful system development requires effective adherence to a system development
methodology and capitalizes on effective project management controls. Our audit revealed
that the Department did not effectively carry out several key project management controls.
As a result of these weaknesses, the Department’s PMT, including the IC, did not adequately
account for project results, and its system development effort did not meet scheduled
expectations. Also, inaccurate earned value reporting and uncontrolled changes undermined the
original project baselines. This had an adverse and cascading effect on risk management and
contract administration, including improper payments to the IC. Additionally, decision-makers
and stakeholders lacked objective and accurate information about the project to make sound
investment management decisions.

Performance Measurement Baselines Were Insufficient and Inadequately Controlled

The PMT, including the IC, did not establish and maintain detailed performance measurement
baselines necessary for quality control and scope verification. Specifically:

•	 The PMT did not identify O11ie’s intended outcomes in sufficient detail to support a
   determination on whether the investment met its goals.
•	 The performance measures selected had limited project control value.
•	 The IC did not establish and maintain necessary time-phased PMB for earned value
   management.

Without specific project baselines, the Department did not effectively establish a quality control
and scope verification process,16 or hold the IC accountable for development results.

These shortcomings occurred because the PMT did not follow approved plans and accepted
procedures. Ineffective OCFO project oversight and ineffective investment oversight by the
Committee and the Department’s CPIC process also contributed to the shortcomings. As a
result, decision-makers and stakeholders were not well informed on whether the project’s
expectations and goals were met. The following discusses these findings in more detail.

OMB Circular A-11 (Circular) establishes requirements for the development and submission of
annual performance budgets. The Circular mandates the use of an ANSI/EIA-STD-748
compliant EVMS for capital IT acquisitions. It also requires that capital investments support

16
   Scope verification refers to the formal acceptance of the completed project scope and associated deliverables
conducted to ensure that each is completed satisfactorily, while quality control is primarily concerned with meeting
the quality requirements specified for the deliverables. Quality control is generally performed before scope
verification but may be performed in parallel.


                                                                                                                       8
Effectiveness of Department FMSS O11i Re-Implementation                                  Final Audit Report
                                                                                        ED-OIG/A11F0005

simplified or otherwise redesigned work processes and make maximum use of commercial off-
the-shelf (COTS) technology to reduce costs and improve effectiveness. OMB’s Capital
Programming Guide17 provides explicit guidance on planning, budgeting, acquiring, and
managing capital assets.

According to the project’s Performance Measurement Plan, a closed feedback loop was planned
to measure performance, correct issues, and validate effective practices during the project
lifecycle. The implementation contract also called for an industry-standards compliant EVMS.
A Performance Measurement Log18 would contain the measures necessary to monitor progress
toward the achievement of performance goals. The log would:

•	   Report on overall performance against the project’s goals and standards.
•	   Identify areas and processes where improvements are necessary.
•	   Document accomplishments.
•	   Assist in managing and controlling costs, schedule, and scope.
•	   Establish accountability by pre-determining expected results.
•	   Help maintain executive sponsorship by providing easily accessible information on the health
     of the project.

Intended Investment Outcomes Were Not Fully Established

We determined that the PMT did not establish tangible investment outcomes to assess whether
investment goals were met as planned and reported.

In its OMB funding requests, the Department identified certain important justifications for the
FMSS O11i investment. Specifically, the Department’s OMB Exhibit 30019 submission
indicated that the financial system re-implementation would have the potential to significantly
reduce cost and improve efficiency. The upgrade would enable the Department to stay current
with Oracle technology and take advantage of enhanced functionality and business process re-
engineering opportunities. The new system and its functionality were envisioned to potentially
eliminate custom software coding that existed since the January 2002 financial system
implementation.

It is well recognized by industry leaders that software customizations are costly to develop and
maintain and should be kept to a minimum when implementing a COTS-based system. The
PMT, however, did not establish detailed goals and metrics, such as targets for custom code and
cost per transaction reductions, as well as other specific measures of increased efficiency. A
number of other investment goals, such as “improving financial system reporting capabilities,”
were not discussed in detail in the approved business case.




17
   First published July 1997, this supplement to the Circular was revised in June 2006. 

18
   Enclosure F – O11ie Performance Measurement Log as of January 19, 2006, provides the complete performance 

measurement log used during system development.

19
   OMB requires agencies to submit this Capital Asset Plan and Business Case for all major IT investments. 



                                                                                                              9
Effectiveness of Department FMSS O11i Re-Implementation                                    Final Audit Report
                                                                                          ED-OIG/A11F0005

These shortcomings do not promote accountability for project results. For example, some
system development payments made to the IC went beyond the initial contracted amount and
could be considered cost overruns.

We determined that, as of the end of Fiscal Year (FY) 2006, the Department had funded
approximately $1.3 million in system “enhancements.” These included a contract modification
awarded in excess of $750,000 at the end of March 2006 for Software Enhancement for
Financial Statement Adjustment Module & Financial Statement Footnotes for Oracle 11i
Implementation. The PMT had classified these development activities as new requirements
(enhancements), although they met the stated investment goal of “improving financial system
reporting capabilities.” Since associated functional requirements were formalized in February
and March 2004, prior to IC contract award, we believe that they should have been implemented
as part of the approved investment and, therefore, not be deemed an enhancement. We also
noted that the Department did not include the additional funding for these enhancements in its
OMB Exhibit 300 until summer 2005, following the decision not to consolidate FSA and OCFO
systems.

Performance Measures Selected Had Limited Value for Project Control

Our reviews of the Performance Measurement Log identified a number of measures that had
limited value for project monitoring. Specifically, some key measures lacked interim metrics to
help monitor their progress, and other measures and targets were overly vague to support their
stated purpose or contribute to project risk management. Table 1 illustrates examples of
performance measures that offer limited value for project management purposes and changes that
weakened initial metrics.

                  Table 1: Example of Performance Measures With Limited Value
        Measurement Area               Performance Measure/Target20                        Weakness
                                   “The project meets with Steering
                                                                                    Measures focus on
     High level of executive-      Committee at least 4 times a year (12
                                                                                    output rather than
     level support for the         months time-period).”
                                                                                    quality of outcomes.
     project.                      Note: The initial performance target for this
                                   measure stipulated 8 meetings per year.          Numbers of meetings are
                                                                                    a poor measure of
     High level of user and        “The Project briefs the FMO21 twice a            customer satisfaction
     stakeholder satisfaction.     year.”                                           and quality of outcomes.




20
   Based on Performance Measurement Log applicable as of January 19, 2006. Changes from initial approved

measures and subsequent to 1/19/06 are noted. 

21
   Financial Management Operations (FMO) personnel have extensive financial management responsibilities for the 

Department. 



                                                                                                             10
Effectiveness of Department FMSS O11i Re-Implementation                                       Final Audit Report
                                                                                             ED-OIG/A11F0005


        Measurement Area                 Performance Measure/Target20                        Weakness

                                    “All in-progress issues will have proposed        The revised measure
     Monitor project risks and     resolutions identified.”                           does not assess whether
     determine mitigation          Note: The initial performance target for this      the key actions required
     strategies in a timely        measure was: “All in-progress issues will have     to mitigate risks have
     manner.                       mitigation strategies in place within a month of   been implemented in a
                                   being identified.”                                 timely manner.

     High percentage of the
     approved and high/must­
                                    “100% of “Must” and “Approved”
     priority requirements are
                                    Requirements are implemented.”
     implemented in the relevant
     timeframe.
                                                                                      Measures are effective
                                    “95% of required users identified to be           after system Go-Live.
                                    trained are trained by Go-Live.”                  They lack interim targets
                                    Note: The target for this metric was
                                                                                      to confirm that progress
                                    subsequently lowered to “50% or greater.”         is as expected and to
                                    According to the Performance Measurement          help identify problems
     Effective and                                                                    early when corrective
                                    Log, as of the October 10, 2006, Go-Live date,
     comprehensive end user                                                           actions are still possible.
                                    only 38 percent of users had been trained.
     training.

                                   “90% of trained users surveyed respond
                                   that the training has helped them prepare
                                   for FMSS Oracle 11i's Go-Live,” and
                                   “addressed their specific job duties.”


Based on the weak risk mitigation metric identified in the Performance Measurement Log, we
conducted a review of project risk management practices underlying in-progress issues status
reporting. We identified the following risk management weaknesses: (1) the PMT had not
implemented a single consolidated Project Issues Log,22 a key feature of its planned risk
management strategy that would have facilitated readily prioritizing risk response across the
project; (2) the Performance Measurement Log did not consistently capture significant in-
progress risks; and (3) an IV&V finding during CRP3 confirmed that, in practice, the project was
calling issues “complete” where the IC made a recommendation to the Department on the
disposition of the issue. However, the work required to fully address the issue may not at that
point have been performed by all responsible parties.




22
   In this context, the term “issue” is synonymous with “risks.” We use both terms interchangeably in our report.
This consolidated log would have captured risks from all sources: issues identified by PMT members; realized risks
from the Risk Log; issues identified by Functional Sub-Team Points of Contact; issues identified by IV&V team
members; and issues identified by other sources


                                                                                                                 11
Effectiveness of Department FMSS O11i Re-Implementation                                    Final Audit Report
                                                                                          ED-OIG/A11F0005

PMB Establishment and Maintenance Were Inadequate for Effective EVMS

We found that the PMB23 did not identify key interdependencies between control accounts or
lower-level tasks/activities. As a result, the PMB offered only a partial picture of the project’s
critical path and milestones, as well as the amount of time a scheduled activity could be delayed
without delaying the next activity or the project overall.

We also determined that all elements of the approved PMB changed repeatedly over the course
of development, weakening the integrity of the original baselines, and undermining the value of
the EVMS and the Department’s ability to hold the IC accountable for project results.
For example: (1) the PMB showed frequent changes to the intended delivery schedule in the
form of key tasks being dropped from their planned cost account, as well as changes to planned
tasks’ end dates; and (2) Budgets-at-Completion for each cost account showed changes to
planned values over the period reviewed, without a documented association to other PMB
changes. Few of these changes were adequately documented as controlled changes. With
respect to project scope, we also determined that large cost accounts (i.e., major activities that
would take several reporting periods to complete) lacked objective measurable milestones
necessary to reliably assess interim progress.

Furthermore, the system requirements baseline provided limited value in documenting agreed-
upon product scope. The IC’s Requirements Management Plan specifically called for a
comprehensive listing of the O11ie functional requirements to be established by the start of the
Design/Build phase. We refer to this initial Requirements Traceability Matrix as the
Requirements Baseline. The Requirements Management Plan stipulated that requirements
identified in the Requirements Baseline would have a “must” priority and an “approved” status.
The “must” priority denotes requirements “critical to the success/survival of the business, or a
direct order from the investor or a key account.” From our review of the Requirements Baseline
we identified over 200 requirements with a priority/status other than “must & approved,” or
approximately 20 percent of requirements listed in the Requirements Baseline. At inception of
the Design/Build phase of development, system functional requirements should have been well
established, clearly documenting agreed-upon product scope. Instead, the large number of
baseline requirements with a priority/status other than “must & approved” raised concerns about
the intended product’s scope. For example, one “must” requirement had a “rejected” status and
15 “approved” requirements had a “could” priority (i.e., “possible, not necessarily
advantageous”).

We also determined that the change control process did not consistently document a number of
changes to the Requirements Baseline. For example, approximately one-third of the
requirements added to the list of “must & approved” requirements between the establishment of
the Requirements Baseline and March 30, 2006, were not documented through the approved
change control process. Additionally, the change control tool did not document the majority of
30 “must & approved” requirements that were removed from the Requirements Baseline during
the period. We also identified requirement priority and/or status discrepancies between the
change control tool and the official list of requirements as of March 30, 2006.
23
  The PMB consisted of a Work Breakdown Structure that identified work to be completed, including a narrative
work description and associated budgets at a cost account level.


                                                                                                                12
Effectiveness of Department FMSS O11i Re-Implementation                                 Final Audit Report
                                                                                       ED-OIG/A11F0005

EVMS guidelines require that a PMB meet certain specifications. It is essential that the PMB
identify objective and frequent indicators to enable measurement of work accomplished, thereby
allowing its accurate comparison to planned work (e.g., physical products, milestones, technical
performance goals, or other indicators to measure progress). Also, scheduling should describe
the sequence of work and identify significant task interdependencies so as to establish the
project’s critical path. Furthermore, formal change control should: (1) consistently identify and
request changes to established baselines; (2) assess the impact of each change and document
approved changes; and (3) provide the mechanisms for the PMT to consistently communicate all
proposed and approved changes to decision-makers and stakeholders.

Uncontrolled Project Work Delays Increased Project Risks

We identified that the FMSS project implementation experienced repeated schedule slippages
that led to significant system development shortfalls through the end of the planned Design/Build
phase. The PMT and IC inaccurately reported these recurring incomplete work results, thus also
masking associated schedule and cost overruns. The PMT managed these risks as if they were
not in progress.

Based on a fixed Go-Live date of October 2006, these delays increased the risks of significant
project cost overruns. Additionally, delays in the Design/Build phase of development increased
the risk of product shortfalls, such as incomplete functionality or system reliability issues. As
reflected in project documentation,24 the system experienced significant interface, performance,
and functionality problems for several weeks after being placed in production on October 10,
2006. These problems could be attributable to the project implementation shortcomings
identified in this report, and can result in additional cost overruns. As illustrated in Table 2, we
determined that several development efforts were not completed as initially planned. Based on
our review of development documentation, it was not always clear when or how the work
postponed would be completed.

                                 Table 2: Status of Planned Development Efforts
                                               Development Phase 225       Development Phase 326
                 Modules to be                                % Not                       % Not
                 Implemented              Planned Actual Demonstrated Planned Actual # Demonstrated
     General Ledger                          6        6       0%          6       6             0%
     Budget Execution                       11        5      55%          2       2             0%
     Account Receivable                     24        24      0%         14       14            0%
     Account Payable                        30        22     27%         14       11            21%
     Purchasing Order                        7        4      43%          4       0            100%
     FSA Integration                         2        1      50%
     iSupplier                                                            5       0            100%
     Enterprise Planning Budget                                           6       0            100%
                   TOTAL                    80        62                 51       33
24
     O11i Daily Status Meeting, November 6, 2006. 

25
     CPR2. 

26
     CRP3. 



                                                                                                         13
Effectiveness of Department FMSS O11i Re-Implementation                           Final Audit Report
                                                                                 ED-OIG/A11F0005

Pursuant to its contract, the IC was to deliver a fully functional system in a production-like
environment at the end of the project’s Design/Build phase. The Department was to test and
evaluate full system functionality, conduct comprehensive, in-depth testing of complex
scenarios, and test applications, including custom code and any workaround, marking the final
activity in the development efforts, i.e., the Enterprise Pilot (EP).

To ensure completion of the Design/Build development phase, requirements mapping should
have been completed to ensure that all source requirements with must/approved status had been
fully addressed. Based on repeatedly postponed work, however, there was a significant shortfall
in the requirements mapped through the end of the Design/Build development phase. We were
unable to determine the exact Design/Build completion status based on poor requirements
documentation. We did, however, identify that the IV&V contractor had expressed similar
concerns. In fact, the IV&V contractor reported on March 28, 2006,27 that approximately 320 of
792 requirements with must/approved status (only 40 percent) had been mapped to development
efforts through the end of the Design/Build phase.

We further determined that the IC reported a fully Earned Value for each development activity
(i.e., planned pilot work 100 percent completed) despite the project work postponements.
Throughout each development cycle the IC and PMT would move to the next cost account
without reporting the scope shortage, thus generating invalid schedule and cost variances.
Reporting a fully Earned Value in these situations is inconsistent with EVMS guidelines, and is
inappropriate even if the Department had approved postponing the planned work. EVMS
guidelines specifically stipulate that approved changes may not alter an existing shortfall: when
planned work is not completed for a given cost account, the earned value should be based on the
initial planned work, and associated cost and schedule overruns must also be documented based
on the initial plans.

We also noted that the project had experienced earlier difficulties in meeting initial contract
milestones, which had resulted in several weeks of schedule delays and a 12.86 percent cost
overrun prior to the Design/Build Phase ($271,889). Cost and schedule overruns of over 10%
must be reported through the CPIC process and corrected. The PMT resorted to “fast tracking”
certain project phases after encountering significant delays, a technique in which activities that
normally would be done in sequence were performed in parallel (i.e., Design/Build activities
started before associated detailed implementation plans were finalized). Fast tracking involves
risks, including the potential need for rework. Despite the fast tracking, the earlier delays had an
impact on key development milestones. For example, initial project plans called for the
completion of certain development activities by the end of February and September 2005. These
development activities, however, were changed to mid-July and end of December 2005
completion target dates, and the Design/Build development phase completion date planned for
the end of January 2006 had been changed to April 2006. These scheduling changes indicated
that the project was already slipping behind schedule.

In addition, our reviews of project documentation revealed that the PMT had not fully considered
pertinent performance results when managing risks and relied on erroneous performance data.
For example, project documentation showed that the PMT did not acknowledge that repeated
27
     Tier IV Enterprise Pilot Assessment Report.


                                                                                                   14
Effectiveness of Department FMSS O11i Re-Implementation                                       Final Audit Report
                                                                                             ED-OIG/A11F0005

schedule slippages had occurred throughout the Design/Build development cycles. Risk
mitigation strategies, such as “track schedule variance through monthly EVMS analysis” and
“understand the project critical path and milestones,” were reported “in place” although they had
not been effectively implemented. Poor implementation of the requirements management tool
also contributed to development shortfalls, with lack of systematic automated system
requirements traceability28 during design and development.

Project Contract Monitoring Was Inadequate

We determined that OCFO personnel did not adequately administer and monitor the
Implementation Contract. In particular, OCFO accepted deliverables that did not meet contract
specifications, and unauthorized OCFO personnel gave instructions to the IC that inappropriately
changed the terms of the contract. As a result, the Department made improper payments to the
IC (e.g., full payment for an incomplete fixed-price deliverable; and incentive payments for work
that was not actually completed as planned, based on erroneous EVMS reports).

These shortcomings occurred because the PMT and CAM personnel did not follow accepted
contract administration procedures. In addition, the FSO Director may have overestimated the
knowledge of the COR and the Implementation Lead. The FSO Director assured us that the
COR had received adequate training in EVMS. Based on COR and Implementation Lead
explanations of various PMB and EVMS shortcomings, we concluded that they did not have
sufficient understanding of these management tools.

Federal acquisition regulations29 and the Department’s contract administration policy impose
specific management constraints including monitoring obligations by contracting officers and
their representatives. Contract monitoring is split between a contracting officer (CO) and a
COR. Department Administrative Communications System (ACS) Directive OCFO: 2-108,
Contract Monitoring for Program Officials,30 requires the CO to appoint a COR and explicitly
document the COR’s limitations and responsibilities.31

The IC COR was specifically: (1) required to monitor the contractor’s performance to ensure
compliance with the technical requirements of the contract, including inspecting and testing
deliverables, evaluating reports, and recommending final acceptance or rejection to the CO;
(2) required to notify the CO if the contractor’s performance is not proceeding satisfactorily or if
problems are anticipated, so that the CO could act promptly to protect the Government’s rights
under the contract; and (3) not authorized to modify the terms of the contract, such as obligated
cost or price, delivery, or scope of work (these contract terms can only be altered through a
formal contract modification signed by the CO).

Ineffective investment oversight processes also failed to identify and correct these shortcomings.
We identified the following contract administration irregularities:

28
   Bidirectional requirements traceability helps determine all source requirements have been completely addressed 

and all lower-level requirements can be traced to a valid source. 

29
   E.g., Code of Federal Regulations, Title 48. Chapter 1, Subpart 42.11 – Production Surveillance and Reporting. 

30
   Effective April 15, 2004, revised March 30, 2006. 

31
   Appointment of Contracting Officer Representative Memorandum. Signed and acknowledged on April 28, 2004. 



                                                                                                                 15
Effectiveness of Department FMSS O11i Re-Implementation                                    Final Audit Report
                                                                                          ED-OIG/A11F0005



The Department accepted a $195,115 fixed-price deliverable that did not meet contract
specifications. The PMB discussed throughout our report was developed as a major deliverable
under the IC contract. According to the contract, the deliverable constituted the baseline for the
EVMS, and contractor eligibility for incentive payments or penalties would be based on this
baseline. Even though the deliverable did not fully meet contract terms, such as not identifying
key interdependencies between control accounts or lower-level tasks/activities, the Department
made full payment for this incomplete deliverable. This shortcoming was never corrected.

We also found no evidence that OCFO personnel had adequately monitored EVMS
implementation or conducted an adequate review of the IC’s progress reports. We determined
that the COR and CO accepted monthly progress/status reports from the IC that did not meet
contract requirements. Significant problems with the EVMS were readily noticeable, and our
analysis revealed extensive problems,32 with over half of 32 standard EVMS guidelines33 not
adequately met. The COR did indicate that the IC progress reports were transferred to other
members of the PMT for evaluation. For example, the IC monthly reports approved by the
Department contained:

•	 Unexplained changes to planned values (as previously discussed).
•	 Erroneous explanations for certain positive cost variances.
•	 Reported earned values that had not been earned (as previously discussed).
•	 An “actual cost” misapplied to a given cost account.
•	 Large fluctuations in cost and/or schedule variances from month to month (clearly indicative
   that planned ‘baseline’ values had changed).
•	 Lack of foundation for schedule and cost estimates to complete the scope of work
   (i.e., the projections to complete had no basis in the variance data reported).

Furthermore, when the Department abandoned the goal to consolidate the FSA and OCFO
financial management systems in January 2005, the CO never formalized this decision to the
contractor in writing. The decision not to consolidate the two systems effectively reduced the
overall product scope by approximately half,34 a significant reduction. Because of the work
scope change, the CO was required by Department policy to assess the impact of the proposed
change (e.g., determine and negotiate a reduced cost for Tier IV), and formalize the change
through a contract modification.

The decreased scope, however, was never translated into a reduced contract and EVMS cost
baseline for the remaining development work. Work remaining was conducted under a
performance-based time and material task that incurred costs in direct proportion to work
actually performed. The initial negotiated task price, however, continued to form the basis for
incentive payments and penalties, thus significantly lowering performance expectations for the

32
   We analyzed IC monthly reports from March 2005 through March 2006 and used a data analysis tool where 

applicable. 

33
   ANSI/EIA-STD-748, based on the National Defense Industrial Association Program Management Systems 

Committee ANSI/EIA-748-A Standard for Earned Value Management Systems Intent Guide.

34
   This scope reduction estimate is based on the number of requirements in the combined list of requirements

immediately before the decision not to consolidate the systems, compared to requirements deemed unique to FMSS. 



                                                                                                             16
Effectiveness of Department FMSS O11i Re-Implementation                                   Final Audit Report
                                                                                         ED-OIG/A11F0005

IC. The contract and procurement officials we spoke with first indicated they were not aware of
the change in scope. These same officials later acknowledged they knew of the change, but they
did not think there was an impact to the scope of work that warranted modifying the contract.
The COR understood that there was a scope of work change but mistakenly implied that it did
not matter, based on development efforts being a time and material task.

Additionally, we noted that ACS Directive OCFO: 2-108 does not require a documented
monitoring plan for major IT investments,35 and the Department's EVMS Policy focuses almost
exclusively on the requirement to incorporate EVMS in procurement instruments and is largely
silent on procedures to monitor EVMS implementations.

IT Capital Planning and Investment Oversight Was Ineffective

The Department’s oversight processes did not ensure availability of reliable project status
information for the FMSS O11i project. As a result, decision-makers and stakeholders lacked
objective and accurate performance data needed to make a fair assessment of the investment’s
progress and results. This occurred because:

•	 Investment and Acquisition Management Services (IAMS, an OCIO subcomponent) was
   unable to identify and correct performance problems not specifically reported by the project.
•	 Presentations to the PIRWG and the Committee included insufficient project performance
   information.
•	 The Department did not make full use of IV&V findings and services for effective risk
   management.
•	 The Department provided OMB and other stakeholders’ invalid performance status
   information for FMSS O11i.

Decision-makers and stakeholders did not have valid performance status information and
generally had to base investment and other decisions on unreliable and erroneous data. This
occurred, in part, because EVMS performance results were derived from an unreliable EVMS.
Furthermore, based on the Department’s existing IT Investment Management (ITIM) program,
the Department could possibly overlook similar problems that may occur with other major IT
investments. We use CPIC and ITIM interchangeably in our report.

Federal statutes, such as the CCA, require agencies to improve mission performance by
implementing a CPIC process for selecting, controlling, and evaluating IT investments. OMB
guidance requires agencies to establish accountability, reduce duplicative spending, eliminate
wasteful management, and maximize the value of IT investments. Agencies must develop,
implement, and use a CPIC process to manage their IT portfolios consistent with established
federal, agency, and bureau enterprise architecture goals. OMB reviews agencies’ IT portfolios
through the budget process and relies heavily on data from Exhibit 300 submissions. OMB
requires agency heads to review major acquisitions achieving less than 90 percent of their goals
to determine whether there is a continuing need for corrective action, including termination.
35
  Late October 2006, OCFO revised the Procedure for Writing and Implementing a Contract Monitoring Plan
(CO-111). Although the procedure must now be followed for every contract, it does not, however, establish
minimum requirements suitable for major IT investments.


                                                                                                            17
Effectiveness of Department FMSS O11i Re-Implementation                                        Final Audit Report
                                                                                              ED-OIG/A11F0005



The Department established an ITIM program to meet its IT CPIC requirements. The
Department’s program is complex and involves multiple parties. The IRB is the executive
decision-making body for the Department. The IRB’s responsibilities include: monitoring
significant IT initiatives against their projected costs, schedule, and performance; and taking
action to continue, modify, or terminate them. Several organizational components, various teams
and working groups support the CPIC process and the work of the IRB.

IAMS was Unable to Identify and Correct Performance Problems

We found that IAMS personnel responsible for reviewing and coordinating the CPIC process
rely almost exclusively on self-reported progress information by project managers, and they do
not make use of projects’ detailed EVMS reports. IAMS personnel were generally aware that
there are ongoing problems in the CPIC control process and, for instance, that some projects’
EVMS implementations generate more reliable data than others. They were not, however, aware
of the specific problems we identified with FMSS O11i’s EVMS. According to the IAMS
Acting Director, it was not known that FMSS EVMS weaknesses resulted in project performance
results data that are largely invalid.

We determined that IAMS and the CPIC process were ineffective in ensuring reliable
performance measurement baselines sufficient to support accountability and clear measurement
of capital investment results. IAMS representatives handling Exhibit 300 submissions were
aware that the goals expressed in each major IT investment’s business case are not always
translated into detailed metrics sufficient to determine whether investment results meet
expectations, and recognized that the current CPIC process has been largely ineffective in
correcting such problems.

IAMS personnel also indicated that they have difficulties in assessing project results because the
Department’s project accounting capability is minimal.36 In addition, a lack of integration exists
between procurement and other project costs information and budget data, and there is limited
coordination between IAMS and CAM personnel regarding major IT acquisitions. According to
IAMS officials, lack of resources was a key reason that their group did not conduct independent
assessments of project-reported performance information. They also indicated that they did not
plan to evaluate the FMSS investment despite the newly implemented system because the project
is still requesting acquisition funds.

Insufficient PIRWG and Committee Presentations

According to IAMS officials, the Department’s CPIC process has primarily relied on self-
reporting by project managers, and CPIC procedures have not included verification that EVM
systems implemented for major IT investments are sound enough to generate generally reliable
performance information. Only recently has the Department started to conduct integrated

36
   IAMS noted, and we confirmed that the O11ie re-implementation had considered, but rejected implementing
the Oracle Project Accounting (PA) capability during the O11ie project. Oracle PA offers several capabilities.
For example, Project Costing helps: capture and process project costs, manage projects across the enterprise, and
manage and gain insight into individual project costs. Project Billing can help streamline invoice generation.


                                                                                                                    18
Effectiveness of Department FMSS O11i Re-Implementation                                   Final Audit Report
                                                                                         ED-OIG/A11F0005

baseline reviews. As of the end of October 2006, the FMSS O11i EVMS had not been subject to
any CPIC review to determine its reliability.

We noted that FMSS O11i performance results briefing material presented to the PIRWG37 and
the Committee38 were insufficient for participants to make informed decisions. For example, one
month after the CRP3’s closeout session, the PIRWG was briefed about the health of FMSS
O11i during a High Risk Project briefing (see Enclosure D – FMSS PIRWG High Risk Project
Briefing, December 14, 2005):

•	 The briefing material presented only rolled up schedule variance information, and provided
   little insight into the Design/Build status, such as the schedule delays discussed earlier in our
   report. Overall schedule variances of –1.56 percent and –1.82 percent were reported for
   September and October 2005 respectively, a healthy posture for the project. (Negative
   schedule variances indicate slippage and should be kept low. Variances that exceed 10
   percent must be reported through the CPIC process and corrected.)

•	 The briefing acknowledged that delays had been experienced with regard to preparations for
   upcoming milestones.39 The briefing, however, stated that no impact was expected in
   meeting the last scheduled development activity (EP) and other major milestones. The
   briefing did not discuss schedule variances at the cost account level (major milestones).

Our review of the underlying variance information for the cost accounts provided in the briefing
showed considerable schedule delays, as illustrated in Table 3 and reported at a high level.
Based on these high variances, the Implementation Lead’s reporting of “no impact is expected in
meeting the major milestones” seems inaccurate based on such a high level of reporting. In
addition, the projection was not based on adequate use of the EVMS forecasting methodology.
Also, the variances at the cost account level exceeded the 10 percent threshold, but they were not
presented to the PIRWG.

          Table 3: Implementation Contractor Reported Significant Schedule Variances40

                                                        Schedule Variance
                                          September 2005 October 2005 November 2005
       Enterprise Pilot Code
                                                 -93%                 -62%                - 42%
       Migration
       Application & Integration
                                                 -69%                 -67%                - 14%
       Test Plans (core)

37
   The PIRWG is responsible for reviewing and analyzing IT investments in the context of various IT investment

management phases to make recommendations to the CIO and the IRB to continue, modify, or terminate 

investments in the Department’s IT portfolio. The PIRWG also provides a forum at which IT investments of

Department program offices can be held accountable to their established performance measurement baseline.

38
    A steering committee had been established to provide the O11ie project executive-level guidance through an

understanding of the Department’s priorities, funding allocations, and long-term strategic goals. 

39
    The Enterprise Pilot Code Migration and the Application & Integration Test Plans cost account activities. 

40
   O11ie monthly Financial Status Reports for the periods ending September, October and November 2005:

Attachment 4 – O11ie Variance Analysis Report (Variance Analysis Tab). The implementation contractor submitted 

its November 2005 report on January 10, 2006. 



                                                                                                            19
Effectiveness of Department FMSS O11i Re-Implementation                                        Final Audit Report
                                                                                              ED-OIG/A11F0005



We found similar problems with briefing material provided to the Committee. For example, at
the end of EP, the Implementation Lead briefed the Committee on the health of the project.
Again, relying on the briefing material, the O11ie Team reported that it was facing no major
development challenges (see Enclosure E – O11ie Steering Committee Report, March 31, 2006).

The Department Did Not Make Full Use of IV&V Findings and Services for Effective Risk
Management

The CPIC process and the Committee did not make adequate use of the Department’s substantial
investment in IV&V services (over $5 million). IV&V was not positioned to ensure adequate
independence from the FMSS PMT. The PMT did not make adequate use of IV&V findings.
We also noted that the Department did not have a policy for making use of contracted IV&V
services. While IAMS managers have plans to improve the Department’s CPIC process, these
plans do not presently include making better use of project-level IV&V services in making
oversight decisions.

Specifically:
•	 We determined that the IV&V contractor reported directly to the FMSS O11i PM and COR,
   and had no access to the Committee, PIRWG, or IRB. The IAMS team leader responsible
   for acquisition was unaware that FMSS O11i had contracted for IV&V services, and
   expressed concerns that the IV&V contractor was reporting to the same COR and PM as the
   FMSS implementation vendor, as this would affect its ability to offer independent opinions.
•	 We determined that the CPIC process did not generally make use of IV&V information.
   IAMS managers indicated that they did not use often-available IV&V resources, such as
   reviewing IV&V reports, or inviting IV&V representatives to brief them on a periodic basis.
   They confirmed that the PIRWG and IRB also did not make use of the IV&V resource to
   inform their decision-making.41

Throughout the project, the IV&V team members discussed their concerns with the O11ie PMT
and submitted written deliverables that formalized their analyses and conclusions. Written
products included weekly and monthly reports, and a number of technical reports on product
development.42 Enclosure G – Annotated Excerpts From IV&V Reports highlights select reports
delivered through the end of the Design/Build development phase.




41
   Following our formal exit conference on September 5, 2006, and at our suggestion, the IRB Chair met with

IV&V representatives to discuss the FMSS project status. 

42
   For example, IV&V issued an assessment report after each pilot, summarizing observations and

recommendations with respect to pilot plan and approach, scenario preparation and execution, and system

configuration. IV&V also issued comprehensive periodic reports that addressed major project control areas (i.e., 

program management, risk and issue management, change management, and performance measurement). 



                                                                                                                     20
Effectiveness of Department FMSS O11i Re-Implementation                                       Final Audit Report
                                                                                             ED-OIG/A11F0005

•	 IV&V repeatedly reported ineffective implementation and usage of automated requirements
   management tools and associated requirements traceability problems43 that were occurring
   throughout system developments.

•	 IV&V highlighted slow system development progress by developing and reporting
   demonstration and mapping statistics of “must & approved” requirements during pilot
   sessions. The poor CRP3 results in November 2005 were clearly indicative of problems on
   the horizon. The Enterprise Pilot goal would not be met as planned unless aggressive
   corrective action was undertaken.

•	 IV&V identified concerns about the actual status of work reported “complete.”

•	 IV&V identified the lack of adequate performance measures to monitor progress as an
   ongoing problem.

More recently, IV&V issued a Cutover Readiness Report on September 26, 2006.44 The report
presented a generally positive cutover readiness posture. However, just two weeks before Go-
Live, IV&V was non-committal in its report about the system’s readiness for production based
on incomplete user acceptance tests and some open issues.

Based on our reviews, we believe that the Committee, IAMS, PIRWG, and the IRB would have
benefited from receiving periodic briefings from the IV&V contractor. Additionally, the project
would have benefited from IV&V reporting outside of the PMT, such as to the Steering
Committee, IAMS, or directly to the PIRWG or IRB.

The Department Did Not Provide OMB and Other Stakeholders An Accurate Assessment of
FMSS O11i’s Performance Status

The Department provided OMB inaccurate FMSS O11i status information. This data was
insufficient for OMB to make informed investment decisions and reliably report to Congress.
We noted that the FMSS performance information provided to OMB is generally the same as
that which is provided to the PIRWG and the Committee. As we discussed earlier, the
information provided to the PIRWG and Committee was insufficient, and the EVMS data was
invalid.

The Department is required to periodically report IT investments’ performance to OMB. The
Exhibit 300 is designed to coordinate collection of agency information for OMB’s reports to the
Congress, as required by FASA and CCA, to ensure the investment’s business case is tied to the
mission statement, long-term goals and objectives, and annual performance plans developed
pursuant to GPRA. For IT, Exhibits 300 are designed to be used as one-stop documents for
many IT management issues such as business cases for investments, IT security reporting, CCA


43
   Under Carnegie Mellon® Software Engineering Institute Capability Maturity Model Integration, the 

Requirements Management process area, Specific Practice 1.4 states, “Maintain bidirectional traceability among the 

requirements and the project plans and work products.” 

44
   The FMSS project management team provided the audit team with this information for consideration.



                                                                                                                 21
Effectiveness of Department FMSS O11i Re-Implementation                                 Final Audit Report
                                                                                       ED-OIG/A11F0005

implementation, E-Government Act implementation, Government Paperwork Elimination Act
implementation, agency’s modernization efforts, and overall project (investment) management.

The Exhibit 300 data is self-reported by each agency, and OMB has not conducted an
independent verification of the accuracy and reliability of the performance data the Department
has provided. From time to time, GAO also relies on self-reported information to meet
congressional requests or conduct other government-wide assessments. It is, therefore, critical
that the performance information reported to OMB and GAO is accurate and reliable. We noted
several instances where inaccurate or insufficient information can affect these stakeholders.

For example, we noted that, in the FY2006 Third Quarter PMA E-Gov scorecard, OMB elevated
the Department’s rating to “GREEN” on “STATUS,” in part based on the Department reporting
EVMS variances of less than 10 percent for its major IT investments. We do not believe that the
Department’s rating was consistent with OMB’s published criteria for a “GREEN” status.

Additionally, in the Department’s Budget Year (BY) 2008 request, the FMSS Exhibit 300 noted
that the Department would spend over $20 million in new investment activities between FY2007
and 2012 and beyond.45 OMB needs accurate and complete FMSS performance information in
order to make a fair assessment of the Department’s BY2008 funding request and continued
FMSS investment plans. This is especially important since OCFO officials have decided not to
become a FM LoB SSC, and the Department would have to plan to migrate to an established FM
LoB SSC.

Recommendations

To correct the weaknesses identified we recommend that the Chief of Staff:

1. Direct the IRB Chair, the CFO and the CIO to jointly review and revise IT acquisition policies
   and procedures, to:
   1.1. Strengthen the March 2006 EVMS Policy by developing EVMS monitoring procedures
        for CORs, COs and project managers, and IAMS/CAM oversight.

     Department Response

     The Department concurred with this recommendation and provided its corrective action plans
     that met the recommendation’s intent.

     1.2. 	 Modify ACS Directive OCFO: 2-108 to require a documented monitoring plan for all
           major IT investments, commensurate with project risks (e.g., complexity, cost, length,
           lifecycle stage); and make necessary adjustments to associated procedures.46




45
   FMSS BY2008 Exhibit 300 provided by IAMS personnel. Table 1: Summary of spending for project phases. 

Acquisition costs for “CY 2007” (current year) through “BY+4 and beyond.” 

46
   Such as OCFO Procedure CO-111.



                                                                                                            22
Effectiveness of Department FMSS O11i Re-Implementation                           Final Audit Report
                                                                                 ED-OIG/A11F0005



  Department Response

    The Department concurred with this recommendation and provided its corrective action plans
    that met the recommendation’s intent.

   1.3. Develop an IV&V services ACS Directive that establishes: (1) IV&V independence from
        the project served; (2) documented disposition of significant or repeated IV&V findings;
        and (3) periodic communication of IV&V findings to oversight bodies and project
        stakeholders at all levels.

   Department Response

   (1) The Department did not concur with this recommendation. The Department stated that
   the IV&V role is to provide an objective assessment of project activities and processes and
   provide the PMT its recommendations. The project team engaged the IV&V team throughout
   the project lifecycle and believes it must reserve the right to determine appropriate responses
   to IV&V observations and recommendations. Management did recognize that it would have
   been a good practice to document the disposition of all IV&V recommendations, whether
   agreed to or not.

   OIG Response

   We believe our recommendation having IV&V report independently is still necessary.

   The recommendation was not intended to prevent IV&V services from working directly with
   a project team. We agree with management that IV&V services should work closely with the
   PMT team. The recommendation intent was to formally position IV&V services to report its
   reviews and findings to oversight entities independently and unfiltered from the project team.
   Under this proposed positioning, IV&V services would strengthen a system implementation
   by not just questioning an implementation but could also support the implementation team by
   validating the soundness and accuracy of the project approach, plans, deliverables and
   products, schedule, architecture, processes, and data, thereby, strengthening internal controls,
   as prescribed in the Ollie Project Plan.

   As pointed out in management’s response, in hindsight, it would have been a good practice to
   document the disposition of all IV&V recommendations whether agreed to or not. Formally
   positioning IV&V services to report independently is a means to strengthen senior level
   project oversight, project accountability, and management internal controls. Therefore, we
   stand by our finding and conclusion and will be asking management to respond to this report
   recommendation in light of our clarifying position.

   (2) and (3) The Department concurred with these recommendations and provided its
   corrective action plans that met the recommendations intent.




                                                                                                   23
Effectiveness of Department FMSS O11i Re-Implementation                           Final Audit Report
                                                                                 ED-OIG/A11F0005

2. Direct the CFO to review the contract administration irregularities and project management
   weaknesses identified in FSO and CAM and to take corrective actions to:
   2.1. Consult the Office of General Counsel regarding possible remedies to recover funds from
        the Oracle 11i implementation contractor for improper incentive payments, unacceptable
        deliverables, and reductions to the scope of work made without the formal authorization
        of the CO.

      Department Response

      The Department did not concur with this recommendation.

      Management stated that no incentive payments were made to the contractor; therefore, no
      improper incentive payments have been made. In addition, the Department stated that it
      did not consider any of the integration contractor’s deliverables to be unacceptable since all
      project deliverables were accepted. Also, the Department stated there were no project
      scope reductions. New user requirements did however require the project schedule to be
      adjusted at various times. As a result, demonstration of specific requirements and
      functionality were moved within or between CRPs with the approval of the project
      management team. These adjustments had no impact on project scope or project schedule
      completion date.

      OIG Response

      During our exit conference with OCFO, the Deputy CFO stated that incentive payments
      were made. In addition, we question the project team’s acceptance of the fixed-price
      deliverable, which constituted the EVMS baseline, because it appeared not to meet
      deliverable specifications due to the status of key-interdependencies described in the draft
      audit report. We believe this deliverable should have been partly unacceptable because key
      interdependencies between control accounts or lower level tasks/activities were not
      specified, resulting in an incomplete deliverable. In addition, some issues raised by IV&V
      were consistent with the findings presented in our report and, as management points out,
      disposition of IV&V findings were not documented or verifiable. Lastly, management also
      stated the PMT was not well versed with the requirements of EVMS. This supports our
      conclusion that deliverables could have been accepted that were incomplete, resulting in an
      incentive payment. We will request that the contracting officer certify that in fact no
      incentive payments were made.




                                                                                                   24
Effectiveness of Department FMSS O11i Re-Implementation                                     Final Audit Report
                                                                                           ED-OIG/A11F0005



     2.2. Determine whether the project management problems we identified were unique to the
          O11ie investment, and address any systemic problem that extends to other OCFO-FSO
          investments.47

       Department Response

       The Department did not concur with this recommendation. The Department disagreed that
       project management problems existed with the Oracle 11i re-Implementation project.
       Management stated that no other systemic problems extended to other OCFO/FSO
       investments and that the Department oversight committees routinely reviewed its
       investments (i.e., PIRWG and IRB committees). The CFO also regularly reviews the status
       of all IT projects in OCFO/FSO.

       OIG Response

       We disagree with management and believe that other systematic problems may exist within
       other Department projects. The Oracle 11i re-implementation was the first project for
       which EVMS was attempted. This first attempt seemed to result in ineffective
       implementation and usage of automated requirements management tools and associated
       traceability problems that were occurring throughout development; IV&V findings were
       not formally documented; and significant schedule variances existed indicating that the
       Department’s system development life cycle had not fully matured and other projects may
       be at risk. Therefore, we stand by our finding and conclusion.

3. Direct the CFO and CIO to work jointly to: (1) coordinate CAM and IAMS oversight and
   monitoring functions; and (2) develop a mandatory48 project and contract monitoring
   curriculum that focuses on (a) establishing and carrying out a comprehensive contract
   monitoring plan for major IT investments, (b) EVMS compliance monitoring and reviewing a
   contractor’s periodic status reports, and (c) using EVMS variances and forecasts to mitigate
   project risks.

     Department Response

     The Department concurred with this recommendation and provided its corrective action plans
     that met the recommendation’s intent.

4. Direct the IRB Chair to use established or revised CPIC Evaluate and Select procedures to
   determine the best course of action for the FMSS investment, including ensuring OMB, GAO,
   and/or Congress receive sufficient and accurate information with respect to FMSS O11i
   project performance and status.


47
   For example, determine whether investments that use the same vendor as the O11ie IC; or the same CO, Contract

Specialist (CS), COR, and/or PM as O11ie have similar problems that need to be addressed. 

48
   We recommend that the Department make this curriculum mandatory for all major IT investment contracts’ CO, 

CS, COR, and project managers; and make the training available to other Department personnel.



                                                                                                              25
Effectiveness of Department FMSS O11i Re-Implementation                                       Final Audit Report
                                                                                             ED-OIG/A11F0005

     Department Response

     The Department concurred with this recommendation and provided its corrective action plans
     that met the recommendation’s intent.

5. Direct the IRB Chair, the CFO and the CIO to jointly improve IT acquisition and the ITIM
   program to make oversight practices more effective by: (1) making the CPIC “Evaluate” phase
   applicable at the conclusion of any major system enhancements; and (2) ensuring that CPIC
   oversight functions are able to ascertain whether/verify that (a) tangible investment outcomes
   are established prior to capital investment approval, (b) the EVMS effectively complies with
   all essential ANSI/EIA-STD-748 guidelines, (c) the project has provided reliable performance
   results information to all decision-makers and stakeholders sufficient for informed decision-
   making, (d) the disposition of IV&V findings is adequate and risks resulting from disposition
   are acceptable, and (e) project managers generally follow project plans and departures are
   documented and resulting risks are understood and acceptable.

     Department Response

     The Department concurred with this recommendation and provided its corrective action plans
     that met the recommendation’s intent.

6. Direct the CIO to determine the feasibility and advisability of consolidating system
   development infrastructures agency-wide and offering centralized expert support to
   development projects.

     Department Response

     The Department concurred with this recommendation and provided its corrective action plans
     that met the recommendation’s intent.

     We initially included the following sub-recommendations in our draft report:

          Direct the IRB Chair to use established or revised CPIC Evaluate and Select procedures
          to determine the best course of action for the FMSS investment, including:

              Obtain an independent assessment that identifies: (1) enhancements and maintenance
              likely to be required over the next 3 years and their approximate cost, and (2) long-
              term financial and technical impacts based on compatibility with interfacing systems
              and other pertinent technical considerations.

              Use the assessment’s results to reassess capital investment decisions and long term
              enterprise architecture goals, particularly with respect to: (1) OMB’s Financial
              Management Line of Business Shared Service Center policy;49 and (2) Department-
              wide technical and information infrastructure goals (e.g., migration toward target
              enterprise architecture, feasibility of original O11ie goal to establish a single system).
49
     See Financial Systems Integration Office and OMB guidance. http://www.fsio.gov/fsio/fsiodata/


                                                                                                               26
Effectiveness of Department FMSS O11i Re-Implementation                      Final Audit Report
                                                                            ED-OIG/A11F0005

        Reinstate the FMSS high-risk status and apply surveillance consistent with OMB M-05­
        23, Improving Information Technology (IT) Project Planning and Execution (August
        2005).

  In its response, management stated it did not concur with these recommendations and provided
  additional information. Upon further review, and in light of this additional information, we
  have removed these recommendations in the final report.




                                                                                               27
Effectiveness of Department FMSS Oracle 11i Re-implementation               Final Audit Report 

ED-OIG/A11F0005                                                 Enclosure A: List of Acronyms





                                   LIST OF ACRONYMS


Acronym       Definition
A&I           Application and Integration
ACS           Administrative Communications System
ANSI          American National Standards Institute
BY            Budget Year
CAM           Contracts and Acquisitions Management (OCFO subcomponent)
CCA           Clinger-Cohen Act of 1996
CIO           Chief Information Officer
CFO           Chief Financial Officer
CO            Contracting Officer
COR           Contracting Officer’s Representative
COTS          Commercial Off-The-Shelf
CPIC          Capital Planning and Investment Control
CRP           Conference Room Pilot
CS            Contract Specialist
EIA           Electronic Industries Alliance
EP            Enterprise Pilot
EVM           Earned Value Management
EVMS          Earned Value Management System
FASA          Federal Acquisition Streamlining Act of 1994
FM            Financial Management
FM LoB        Financial Management Line of Business
FMSS          Financial Management Support System (also ‘FMSS O11i’)
FSA           Office of Federal Student Aid
FSO           Financial System Operations (OCFO subcomponent)
FST           Functional Sub-Team
FY            Fiscal Year
GAO           Government Accountability Office
GM            Grants Management
GM LoB        Grants Management Line of Business
GPRA          Government Performance Results Act of 1993
IAMS          Investment and Acquisition Management Services (OCIO subcomponent)
IC            Implementation Contractor (FMSS O11i implementation vendor)
IRB           Investment Review Board
IT            Information Technology
ITIM          Information Technology Investment Management
IV&V          Independent Verification and Validation
              Also refers to the IV&V Contractor
JFMIP         Joint Financial Management Improvement Program




                                                                                           A.1
Effectiveness of Department FMSS Oracle 11i Re-implementation               Final Audit Report 

ED-OIG/A11F0005                                                 Enclosure A: List of Acronyms




Acronym       Definition
LoB           Line of Business
O11i          Version 11i of Oracle Federal Financials
O11ie         Oracle 11i Implementation Environment
OCFO          Office of the Chief Financial Officer
OCIO          Office of the Chief Information Officer
OMB           Office of Management and Budget
PIRWG         Planning and Investment Review Working Group
PM            Project Manager
PMA           President’s Management Agenda - 2002
PMB           Performance Measurement Baseline
PMT           Project Management Team
SSC           Shared Service Center




                                                                                           A.2
    Effectiveness of Department FMSS Oracle 11i Re-implementation                                 Final Audit Report 

    ED-OIG/A11F0005                                       Enclosure B: The O11ie Team – Project Management Structure


                                The O11ie Team – Project Management Structure1
    To ensure successful completion of the O11ie project, the Department established a complex
    management structure comprised of a wide variety of dedicated Department personnel and contractors.
    The Department refers to them jointly as the “O11ie Team.” As described in the Project Management
    Plan, the project includes multiple teams that have specific roles and responsibilities:




                                                                              Data
                                            AP/PO       AR      Budget     Conversion
                                                                            Strategy
                                              FSA
                                          Integration   GL       Reports   Technical




•   The Steering Committee, comprised of executive-level representatives from within the Department,
    provides strategic guidance and oversight. The Committee provides guidance to the project through an
    understanding of the Department’s priorities, funding allocations, and long-term strategic goals.
•   The Project Management Team (PMT), headed by the Project Manager, is responsible for overall
    project planning, management, and budget formulation. The Project Manager also serves as senior
    management liaison.
•   The Change Management Team (CMT) is responsible for organizational change management,
    communications, marketing, and user training needs of the project.
•   The Project Management Office (PMO) contractor supports the PMT in project management-related
    tasks on a day-to-day basis.
•   The Independent Verification and Validation (IV&V) contractor provides independent verification and
    validation services for Tiers II through IV and the Pre-Production and Post-Production testing periods.
•   The Implementation Contractor (IC) is responsible for the technical implementation of the project
    solution.
•   Several Functional Sub-Teams (FST) address specific areas of functionality2 to ensure all aspects of
    the implementation and specific goals are achieved.
•   Key Department Personnel manage, lead, or provide directions to the project teams. They include a
    Project Manager, an Implementation Lead, an Implementation Coordinator, a Change Management
    Lead, and a Contracting Officer’s Representative.


    1
        Summary based on 2004 Communications and Project Management Plans prepared by the O11ie PMO Contractor.
    2
        For example: Accounts Payable and Purchasing (AP/PO), Accounts Receivable (AR), General Ledger (GL).

                                                                                                              B.1
Effectiveness of Department FMSS Oracle 11i Re-implementation                           Final Audit Report 

ED-OIG/A11F0005                             Enclosure C: Summary of System Development Approach for O11ie





           SUMMARY OF SYSTEM DEVELOPMENT APPROACH FOR O11ie


Four Project Tiers

According to Statements of Work to contractors, the Department used a four-tiered approach for
the O11ie project as follows:
•	 Tier I, conduct a high-level Impact Assessment of the upgrade on the business process, as
    well as custom interfaces, extensions and reports.
•	 Tier II, develop an Upgrade Strategy and Approach utilizing the Tier I impact assessment.
•	 Tier III, develop a detailed Implementation Plan.
•	 Tier IV, implement the 11i upgrade.

At completion of Tier I in June 2002, the Department had determined it was feasible to move to
a single accounting system that would include FSA. The Department proceeded accordingly,
completing certain pre-implementation tasks early in calendar 2004.

Tier II, was to develop an Upgrade Strategy and Approach that validated the Tier I Impact
Assessment. The results were to be presented in an Upgrade Strategy deliverable. The analysis
was to take into consideration any training, data conversion, development, configuration, and/or
testing impact with the upgrade. In addition, the Upgrade Strategy would include the proposed
methodology for moving forward with the implementation of the upgrade (e.g., deployment
strategy, dependencies, timing considerations, implementation tasks, planned work products, and
deliverables, etc.) and high-level milestones.

Tier III was to develop a detailed Implementation Plan. Upon approval of the Upgrade Strategy,
a detailed implementation work plan and schedule was to be prepared in accordance with the
Upgrade Strategy and Approach. The Implementation Plan was to include the detailed tasks,
timing, and level of effort estimates for the 11i upgrade implementation lifecycle (e.g.,
configuration, enterprise pilot, design, development, testing, training, infrastructure upgrade,
cutover, etc.)

Tier IV was to encompass the actual implementation effort. The “Go-Live” date was initially
scheduled for October 1, 2006, although the Department expected the upgrade to be ready to go
earlier with several months dedicated to pre-production testing. In addition, up to three months
of post-production testing would occur.




                                                                                                       C.1
Effectiveness of Department FMSS Oracle 11i Re-implementation                           Final Audit Report 

ED-OIG/A11F0005                             Enclosure C: Summary of System Development Approach for O11ie


Relationship between Project Tiers, System Development Phases, Systems Requirements
Management, and Pilots

According to its approved technical proposal dated February 17, 2004, the implementation
contractor would use a four-phased approach to Analyze, Design/Build, Integrate and Implement
the system:




According to the implementation contractor’s Requirements Management Plan (July 2004),
several elements would comprise the O11ie system requirements development and management
process:
Requirements Development Process – Tier II:
o	 Establish the definition of what is considered a required function/functionality.
o	 Establish preliminary O11ie functional requirements baseline and develop the initial
   Requirements Traceability Matrix (RTM, a product of Tier II).
Requirements Development Process – Tier IV:
o	 Detail and Clarify Baseline Requirements by developing the functional requirements to a
   lower level of detail that can be used in development (including unit testing) and A&I
   Testing efforts.
Requirements Management Process – Throughout both Tiers:
o	 Manage Requirement Change.
o	 Develop test plans to validate that requirements are met in the solution.

Tier II

During the analysis phase, the O11ie Team would capture all requirements for the new system.
The O11ie requirements would include Joint Financial Management Improvement Program
(JFMIP) standard requirements for financial management systems and Department specific
requirements.

The O11ie Team would collect, review and confirm requirements collected to assess whether
they are valid and apply to the core O11ie business processes, using several validation
mechanisms, including: Business Process Analysis, Pre-CRP1 Working Sessions, and CRP1.
The O11ie Team would develop an understanding of the requirements. When the requirements
have been collected and reviewed, the timeline and scope of the project would be considered
when making the final decisions about what is classified as a mandatory requirement. The O11ie
Project Team would take into consideration the impact of addressing the requirement including,
where appropriate, both the immediate and ongoing cost and risk of developing an extension to
address the need.


                                                                                                       C.2
Effectiveness of Department FMSS Oracle 11i Re-implementation                           Final Audit Report 

ED-OIG/A11F0005                             Enclosure C: Summary of System Development Approach for O11ie




The end result of these efforts would be the generation of the baseline RTM at the conclusion of
Tier II. Those requirements identified as part of the initial RTM baseline would have a Priority
of “Must” and a Status of “Approved.” The RTM would be maintained in a requirements
management industry-standard tool and would be available in text format for review.

More specifically, at the conclusion of the Tier II, a comprehensive listing of the O11ie
Functional Requirements would be provided. The term “functional requirement” refers to a level
of detail sufficient to assess the impact of the requirement but not sufficient to develop any
required code or detailed configuration steps. For example, a functional requirement for the
Document Summary Report would be, “The EDCAPS Document Summary Report will provide
summary document information for a period range.” The automated tool selected for this project
also refers to such a requirement as a feature and assigns a FEAT number.

Tier IV

After the requirements have been baselined during Tier II, another series of events would occur
to provide clarity and details as appropriate to the requirements throughout Tier IV activities.
The baseline functional requirements would be detailed to include a “Use Case,” defined as, “A
description of system behavior in terms of sequences of actions. A use case should yield an
observable result to the end user.” The automated tool would assign a Use Case (UC) number.
During detailing, one or more Supplementary Requirements (SUPP) may also be identified (such
as a non-functional requirement like the use of a particular format standard). Approved FEAT
requirements would cross-trace to and from UC and SUPP requirements.

Detail and clarification of the baseline requirements would be conducted in Tier IV through:
Interface Analysis and Design Documents for any new development efforts, CRP2 and CRP3,
EP, and Change Requests.

Conference Room Pilots 2 & 3

The execution of CRP2 and CRP3 would demonstrate/validate that high-level requirements have
been properly decomposed to a lower level. The decomposition of the high-level requirements
might result in one high-level requirement having relationships to multiple O11ie functions,
artifacts, documents, and test cases while at the child level there would be a narrow relationship.
At that point, these “parent-child relationships” would be identified in the RTM. The RTM
would be used to prepare test cases, allowing for a backward trace from test cases to specific
requirements. The mapping of test cases to requirements would be maintained in the RTM.

Gaps in the requirements might be identified. The O11ie Project Team would then assess the
various possibilities available to bridge each gap through one of several possibilities (e.g.,
process workaround; design/develop an extension or customization to resolve the gap; specify
that the requirement will be addressed as a future enhancement – only for non-critical gaps; or
de-prioritize the requirement such that it is not required, such as for a report that is desired but
not critical).



                                                                                                       C.3
Effectiveness of Department FMSS Oracle 11i Re-implementation                           Final Audit Report 

ED-OIG/A11F0005                             Enclosure C: Summary of System Development Approach for O11ie




The second and third conference room pilots would allow the team to incorporate configuration
updates resulting from the gap/issues document discussions. Similar to the process for CRP1, a
listing of issues and decisions reached would be maintained for CRP2 and CRP3. As items are
resolved, the conclusions/ decisions reached would be documented and not deleted. Any items
not resolved at the conclusion of the third CRP were to be addressed before the start of EP.

Enterprise Pilot

The EP was intended as a demonstration of the business scenarios in a pre-production
environment where all customizations and workarounds should be demonstrated as they are
planned for production. The scenarios from CRP3 would have been updated (or new scenarios
created) to include the processing required for the customizations. All scenarios were required to
be covered in the EP. Any issues or changes made to configuration/designs had to be
documented in an EP Issues/Discussion log similar to that used in the CRPs. It was suggested
that the Training and Testing Teams participate in the EP.

Training and Testing

Consistent throughout the CRPs and EP, the IC FST Leads would identify issues that must be
addressed during end user training. These items would be marked on the issues document and
captured in the designated Change Management tool. Also, requirements identified that might
be outside the scope of the implementation would be captured in the automated tool as items for
“Post-Implementation Consideration.”

The scenarios developed for the CRPs and EP and the interface requirements document would be
used as input for the A&I test scripts. The scripts would use the scenarios to ensure full test
coverage and add detailed procedures as necessary to support the testing needs.

Likewise, the Training team would use the scenarios to develop and validate their end-user
training material.




                                                                                                       C.4
Effectiveness of Department FMSS Oracle 11i Re-implementation                                      Final Audit Report

ED-OIG/A11F0005                               Enclosure D: FMSS PIRWG High Risk Project Briefing, December 14, 2005





                                                 Department of Education

                                    FY2005 Q4 High Risk Project Briefing
                          Financial Management Support System (FMSS)



                                                                                               PIRWG Meeting
                                                                                                     December 14, 2005




                                                                                                                           1




                               Investment
                               Investment Overview
                                          Overview


                            Project Name: Financial Management Support System (FMSS)
                            Project Owner: OCFO
                            Project Manager: Danny Harris
                            Project Lead: Steve Sirk
                            IV & V Vendor: eSource / BearingPoint
                            Development Vendor: IBM
                            Project Description: O11ie supports the implementation of the next version of Oracle
                             Federal Financials, currently release 11.5.10, also known as Oracle 11i. The Oracle 11i
                             implementation seeks to:
                                 - Stay current with Oracle technology, and to take advantage of enhanced functionality,
                                 product “bug” fixes, and an enhanced technical architecture
                                 - Improve the efficiency of the Department’s financial systems and operations
                                 - Validate assumptions and decisions made during the previous implementation
                                 - Take advantage of business process re-engineering opportunities
                                 - Continue the Department’s track record of a successful, effective Oracle Federal
                                 Financials implementation process

                                                                                                                           2




                                                                                                                               D.1

Effectiveness of Department FMSS Oracle 11i Re-implementation                                      Final Audit Report

ED-OIG/A11F0005                               Enclosure D: FMSS PIRWG High Risk Project Briefing, December 14, 2005





                                   High
                                   High Risk
                                        Risk Rationale
                                             Rationale
                                                                                                                                               NOTE: Designation as high
                                                               Cost / Schedule Variance                                                        risk for cost and schedule
                                                                                                                                               variance is based on
                                                                                                                                               quarterly Control data. The
                                                                       9/30/2005                               10/31/2005                      latest cost and schedule
                                                                 FY05Q4 Control Report                     October Monthly Update              variance is included for your
                                                                                                                                               reference.
                            Cost Variance
                                                                       +0.83%                                   +0.73%
                            Cost Impact*                         $445,240 under budget                     $393,168 under budget

                            Schedule Variance
                                                                       -1.56%                                    -1.82%
                            Schedule Impact**            Delays in EP Code Migration, Data        Delay in Financial Statements
                                                         Conversion, and A&I Test Plans (Core)    implementation task but no impact is
                                                         but no impact is expected in meeting     expected in meeting the major
                                                         the major milestones and no delay is     milestones and no delay is expected in
                                                         expected in the Go-Live date.            the Go-Live date.



                           EVMS Software: eCPIC




                                      Applicable High Risk Criteria                                                 Explanation
                            An investment that is applying to become an E-Gov              It is the Department’s desire to become a Center of
                            Center of Excellence                                           Excellence to provide financial management services to
                                                                                           other agencies in the federal government.




                                                                                                                                                                          3




                                   Risk
                                   Risk Mitigation
                                        Mitigation Strategies
                                                   Strategies // Key
                                                                 Key Activities
                                                                     Activities

                        Highlight critical risk mitigation strategies and key project activities
                        performed to date
                         Risk Mitigation Strategies
                          Date Identified                       Risk                                             Mitigation Strategy
                            Sept. 2005       Delay in Migrating Data Center to Oxon Hill    - Align migration schedule with O11ie schedule
                                             may impact schedule and resources              - Communicate regularly with OCIO on progress of migration
                                                                                            - Provide proactive, timely support to migration team
                            Feb. 2005        HW/SW procurement delays may impact            - Define viable alternative solutions and leverage existing
                                             schedule, cost, and resources                  Department resources to resolve issues
                                                                                            - Identify vendors that will ensure quick turn-around times –
                                                                                            - Hold weekly meetings to communicate and ensure timely
                                                                                            resolution of issues
                                                                                            - Manage and reschedule procurement-dependent tasks
                                                                                            without causing a delay in go-live date
                             Jun. 2004       Interoperability issues with legacy and new    - Conduct bi-weekly meetings and share documentation with
                                             systems may create implementation issues       FSA’s FMS upgrade team
                                                                                            - Convene quarterly meetings with leads of other
                                                                                            systems/projects to align schedules and identify integration
                                                                                            impacts
                                                                                            - Communicate with end-users to ensure appropriate
                                                                                            involvement and support for the system, processes, and
                                                                                            procedures
                            Aug. 2005        Slow response of vendor (Oracle) to            - Hold weekly meetings with vendor and project team to
                                             Technical Assistance Request (TAR)             expedite resolutions
                                             resolution and enhancement requests may        - Define deadlines for, and contingency workarounds in lieu
                                             cause major delays in the project schedule     of, TAR resolution by vendor
                                                                                            - Postpone non-critical functionality if resolutions are not met
                                                                                            by the defined deadline
                                                                                                                                                                          4




                                                                                                                                                                               D.2

Effectiveness of Department FMSS Oracle 11i Re-implementation                                      Final Audit Report

ED-OIG/A11F0005                               Enclosure D: FMSS PIRWG High Risk Project Briefing, December 14, 2005





                                   Risk
                                   Risk Mitigation
                                        Mitigation Strategies
                                                   Strategies // Key
                                                                 Key Activities
                                                                     Activities (cont.)
                                                                                (cont.)

                        Highlight critical risk mitigation strategies and key project activities
                        performed to date (cont.)

                         Key Activities (Previous 3-4 Months)
                           Date                             Activity                                               Impact
                         Sept. 2005      Ongoing technical issue reviews              Discuss and evaluate issues regarding data center move to
                                                                                      Oxon Hill and other technical concerns in several weekly
                                                                                      meetings to ensure appropriate planning and procurement, and
                                                                                      timely issue resolution.
                         Oct. 2005       Technical Architecture Assessment            Examined infrastructure decisions related to deployment of
                                                                                      servers, storage, and network connectivity for the multiple
                                                                                      project environments, as well as the data center move to Oxon
                                                                                      Hill. Provided analysis and recommendations to increase
                                                                                      alignment with industry best practices.
                         Oct. – Nov.     Conference Room Pilot (CRP) 3                Further demonstration and validation of Oracle functionality
                           2005                                                       according to the Department’s business processes, including
                                                                                      evaluation of data conversion approach.
                         Nov. 2005       Initial Performance Test                     Provided baseline data points for Performance Testing
                                                                                      exercises to be conducted during the performance tuning
                                                                                      process (Jul. 2006).
                         Dec. 2005       Ongoing monthly and quarterly risk reviews   Conduct regular risk reviews with the Project Management
                                                                                      Team to evaluate the effectiveness of enacted mitigation
                                                                                      strategies, identify resolutions to realized risks, and discuss new
                                                                                      risks.




                                                                                                                                                            5




                                   Next
                                   Next Steps
                                        Steps

                        Provide the planned activities for implementing risk mitigation
                        strategies as well as upcoming key project activities
                         Key Upcoming Activities
                              Date                              Activity                                           Impact
                           Dec. 2005         Center of Excellence feasibility study    Perform an analysis of the Department’s ability to provide
                                                                                       financial system functionality as a Federal Center of
                                                                                       Excellence.
                           Jan. 2006         System integration demonstrations         Demonstrate the interoperability of FMSS interfaces with
                                                                                       CPSS and Nortridge, and document and resolve any
                                                                                       unexpected results.
                           Jan. 2006         Training Plan development                 Develop, vet, and finalize a Training Plan to guide
                                                                                       communication, planning, and scheduling of training
                                                                                       activities for users of FMSS.
                           Jan. – Feb.       Data Center Migration to Oxon Hill        Continue to hold regular meetings and validate schedule of
                              2006                                                     activities; collaborate with OCIO throughout this critical
                                                                                       activity.
                           Feb. – Mar.       Enterprise Pilot                          An evaluation of the final, fully-functional system.
                             2006                                                      Demonstrate all FMSS business processes in a production-
                                                                                       like environment, and document and resolve any unexpected
                                                                                       results. This marks the final activity in the design/build phase
                                                                                       of the project.




                                                                                                                                                            6




                                                                                                                                                                D.3

Effectiveness of Department FMSS Oracle 11i Re-implementation                                      Final Audit Report

ED-OIG/A11F0005                               Enclosure D: FMSS PIRWG High Risk Project Briefing, December 14, 2005





                               Dependencies
                               Dependencies and
                                            and Other
                                                Other Pertinent
                                                      Pertinent Information
                                                                Information

                        Describe dependencies with other major projects
                        Enter the name of projects upon which this investment is dependent

                              FSA’s FMS
                                    Bi-weekly meetings held between FMS and O11ie teams to discuss integration points
                                   and lessons learned from the FMS upgrade

                              Integration points with CPSS, Nortridge, GAPS, eTravel
                                    Quarterly meetings held between O11ie management and functional leads for each of
                                   these projects/systems to discuss integration points and align milestones


                        State other issues that are impacting the execution / implementation / performance of
                        this project

                              Data Center Migration – delays may impact Oracle 11i go-live
                              Technical Architecture Assessment – additional resources needed to ensure
                                business continuity and address network issues and documentation procedures


                                                                                                                         7




                                                                                                                             D.4

Effectiveness of Department FMSS Oracle 11i Re-implementation                                     Final Audit Report 

ED-OIG/A11F0005                                         Enclosure E: O11ie Steering Committee Report, March 31, 2006





                                        Oracle 11i Implementation
                                        Environment (O11ie):
                                        Steering Committee Report



                                                              Steve Sirk
                                                              March 31, 2006




                                         Agenda

                       • Progress Review
                                – Recent Accomplishments
                                – Activities in Progress
                                – Change Management Activities

                       • Financial Report

                       • Upcoming Activities

                       • Challenges

                      2006-03-31 Steering Committee Meeting                    2




                                                                                                          E.1

Effectiveness of Department FMSS Oracle 11i Re-implementation                                     Final Audit Report 

ED-OIG/A11F0005                                         Enclosure E: O11ie Steering Committee Report, March 31, 2006





                                           Progress Review:


                                         Recent Accomplishments

                       • Completion of Enterprise Pilot (EP)
                                – Excellent attendance and participation
                                – New EPB module and Single Sign-On functionality
                                  demonstrated in the production-like environment
                                – No showstopper issues identified
                       • Preparation for training development
                                – Training Plan, Training Evaluation Plan, and draft Training
                                  Curriculum delivered
                                – OnDemand training tool procured
                       • Preparation for testing execution
                                – A&I Test Plan and detailed schedule delivered
                                – User Acceptance detailed schedule completed
                       • Section 508 Compliance Assurance
                                – Accessibility Review/Test conducted 3/28

                      2006-03-31 Steering Committee Meeting   3




                                           Progress Review:


                                         Recent Accomplishments (cont.)

                       • Quarterly Risk Review conducted
                       • Challenges overcome:
                         – Data center move
                                         • Worked with OCIO to complete the move
                                           successfully
                                – Readiness of data encryption by EP
                                         • Worked with OCIO to implement an effective
                                           data encryption solution




                      2006-03-31 Steering Committee Meeting   4




                                                                                                          E.2

Effectiveness of Department FMSS Oracle 11i Re-implementation                                     Final Audit Report 

ED-OIG/A11F0005                                         Enclosure E: O11ie Steering Committee Report, March 31, 2006





                                           Progress Review:


                                         Activities in Progress

                       • Controlled Performance Test
                       • Application and Integration (A&I) Testing
                       • Training Activities
                                – Setup and configuration of OnDemand (training tool)
                                – Development of course materials
                       •      Certification and Accreditation (C&A)
                       •      Data clean-up
                       •      OIG review
                       •      Functional Sub-Teams
                                – Resolve outstanding EP issues/actions
                                – Focus is shifting from designing the system to testing,
                                  training, and change management efforts
                      2006-03-31 Steering Committee Meeting      5




                                           Progress Review:


                                         Change Management Activities

                       • Increasing level of project involvement to end-users
                                – User Acceptance testing
                                – Open House event in July
                       • Ongoing communications
                                – Conducting informational briefings throughout the
                                  Department to present:
                                         • Project status
                                         • Changes in the new system
                                         • When to expect training
                                – Training Coordinators as “change agents”
                                – FMSS Oracle 11i information now on connectED
                       • Increased frequency of Change Management Team 

                         meetings from monthly to biweekly

                      2006-03-31 Steering Committee Meeting      6




                                                                                                          E.3

Effectiveness of Department FMSS Oracle 11i Re-implementation                                     Final Audit Report 

ED-OIG/A11F0005                                         Enclosure E: O11ie Steering Committee Report, March 31, 2006





                                           Financial Report                              (as of February 2006)

                      Total Budget                  Planned          Actual Cost       % Spending   Earned Value    % Cost     % Schedule
                      (for the whole of             Value            (in '000s)        Variance     (in '000s)      Variance   Variance
                      Tier IV)                      (in '000s)   A                 B                            C
                      $12,205,205                   $ 7,146.7        $6,510.0          +8.91%       $7,099.9        +8.31%     -0.66%




                       • Total Budget is the total estimated cost for all of Tier IV
                       • Planned Value is the budgeted cost of the work scheduled as of February 2006
                       • Actual Cost refers to the cost incurred for the work performed as of February 2006
                       • % Spending Variance is the comparison between how much money was planned to be spent as of
                       February 2006 and how much was actually spent
                             [( A – B ) / A ] x 100
                       • Earned Value is the estimated cost budgeted for the work actually performed as of February 2006
                       • % Cost Variance is the comparison between the budget for the work performed and its actual cost
                             [( C – B ) / C ] x 100
                       • % Schedule Variance is the comparison between the budget for the work performed and the budget for
                       the work scheduled
                             [( C – A ) / A ] x 100




                      2006-03-31 Steering Committee Meeting                                 7




                                         Upcoming Activities

                       • A&I Testing: February - June

                       • User Acceptance Testing: April - August

                       • Mock Cutover: July

                       • Conduct C&A: July – September

                       • Training: Starts in July

                       • Pre-Production Validation: July – September

                       • Go-Live: October
                      2006-03-31 Steering Committee Meeting                                 8




                                                                                                                                            E.4

Effectiveness of Department FMSS Oracle 11i Re-implementation                                     Final Audit Report 

ED-OIG/A11F0005                                         Enclosure E: O11ie Steering Committee Report, March 31, 2006





                                         Challenges

                       • Enterprise Planning and Budgeting (EPB)
                         module
                                – Working with Oracle to resolve remaining issues
                                  (no showstoppers)
                                – Contingency plan: implement Oracle Financial
                                  Analyzer (OFA) in standalone mode


                       • Training resource constraints




                      2006-03-31 Steering Committee Meeting   9




                                                                                                          E.5

Effectiveness of Department FMSS Oracle 11i Re-implementation                              Final Audit Report

ED-OIG/A11F0005                         Enclosure F: O11ie Performance Measurement Log as of January 19, 2006





                    Performance Measurement Log


FMSS Oracle 11i will contribute to the Department maintaining the Unqualified Audit Opinion on its financial statements
Performance Target                                                                       Results
                                               2006
The Department’s financial statements
gets an unqualified audit opinion

FMSS Oracle 11i will improve the
reconciliation process based on final
solution design that either reduces
manual processes or removes a
reconciliation effort
FMSS Oracle 11i will result in an
accelerated financial reporting



The audit of the Department’s financial statements will result in no Material Weaknesses that will be due to FMSS Oracle 11i
Performance Target                                                                       Results
                                          Prior to Go-Live

100% of approved (i.e. verified and
accepted by the O11ie Project
Management) potential material
weaknesses1 are resolved prior to go-
live
1
    Identified through IV&V’s compliance check




High level of O11ie Team and Stakeholder Support for the Project
Performance Target                                                                       Results
O11ie Team Support                          Apr 2004
                                                      1
                                                               Jul 2004        Apr 2005        Dec 2005                        …
75% or more team members participate            N/A              79%             73%               49%
in pre-team maintenance meeting
survey
75% or more team members attend the            100%             77.33%          93.18%             67%
team maintenance meeting

75% or more team members have at               95%              76.50%           94%               93%
least a GOOD knowledge of O11ie based
on the phase of the project lifecycle
within the relevant time-period of the
survey
Executive-Level Support                   Apr 2004 - Mar Apr 2005 - Mar Apr 2006 - Oct
                                               2005           2006          2006
                                                                                2


The project meets with Steering                 8x             3x
Committee at least 4x a year (12 month
time-period)
Others                                     Sep 2004 (for     Sep 2005 (for   Sep 2006 (for
                                              FY05)             FY06)           FY07)
The project submits the Exhibit 300 to          Yes               Yes
OMB on time
The project submits the Business Case           Yes               Yes
to the IRB on time
1
  As part of the Project Kick-Off
2
    Target is to meet with Steering Committee at least 2x in the last 7 months of the project




High level of FMSS Oracle 11i User and Stakeholder Satisfaction
Performance Target                                                                       Results
                                          Jun 2004 - May Jun 2005 - May Jun 2006 - Oct
                                               2005           2006           2006
The Project briefs the FMO twice a year         2x             1x

At least 70% of the FMSS Oracle 11i       100% (FMO)
users surveyed have a FAIR knowledge      92% (FSA CFO)
of O11ie status to date




                                                                                                                                   F.1
Effectiveness of Department FMSS Oracle 11i Re-implementation                              Final Audit Report

ED-OIG/A11F0005                         Enclosure F: O11ie Performance Measurement Log as of January 19, 2006





                        Performance Measurement Log


Effective and comprehensive end user training
Performance Target                                                                      Results
                                                          1
                                             TBD (2006)       TBD (2006)1
95% of required users identified to be                                                                                                         Auditor Note:
trained are trained by Go-Live                                                                                                                 Target was
                                                                                                                                               subsequently
                                                                                                                                               reduced to 50%.
90% of trained users surveyed respond
that the training has helped them
prepare for FMSS Oracle 11i’s Go-Live

90% of trained users surveyed respond
that the training addressed their specific
job duties

90% of trained users surveyed respond
at least FAIR that the timing of their
training is appropriate in preparing them
for use of the new system




1
    The timing for when the metrics will be collected is currently being determined




Complete project within budget
Performance Target                                                                                           Results
                                               Mar-05           Apr-05       May-05               Jun-05               Jul-05      Aug-05           Sep-05        Oct-05
Tier IV: Monthly Cost Variance for             13.85%           17.63%       17.56%               12.18%               -0.19%      7.53%            10.54%        8.52%
Implementation will not exceed
(negative) 10% of the current baseline
approved by the Department                     Nov-05           Dec-05       Jan-06               Feb-06               Mar-06      Apr-06          May-06         Jun-06


                                               15.04%




Complete project within schedule
Performance Target                                                                                           Results
                    Tier II                    May-04           Jun-04       Jul-04               Aug-04               Sep-04      Oct-04           Nov-04        Dec-04

Tier II: Monthly Schedule Variance for         1.19%            5.74%        14.09%               8.14%                11.07%         -2.52%             -1.20%       -1.21%
Implementation will not exceed
(negative) 10% of the current baseline         Jan-05           Feb-05
approved by the Department
                                               -1.21%                0.00%


                   Tier III                    Mar-05

Tier III: Monthly Schedule Variance for        0.00%
Implementation will not exceed
(negative) 10% of the current baseline
approved by the Department


                    Tier IV                    Mar-05           Apr-05       May-05               Jun-05               Jul-05      Aug-05           Sep-05        Oct-05

Tier IV: Monthly Schedule Variance for         -12.06%          15.29%       16.31%               14.56%               -11.39%     -9.19%           -8.74%        -9.25%
Implementation will not exceed
(negative) 10% of the current baseline         Nov-05           Dec-05       Jan-06               Feb-06               Mar-06      Apr-06          May-06         Jun-06
approved by the Department
                                               -3.99%

                Deliverables                    Tier I        Pre-Imple-     Tier II              Tier III             Tier IV
                                                              mentation
                                                               Ramp-up
100% of major1 deliverables are                 100%             100%         100%                 100%          Currently, 100%
submitted on time                              (4 of 4)         (3 of 3)     (9 of 9)             (1 of 1)           (9 of 9)

1
    does not include status reports




                                                                                                                                                                           F.2
Effectiveness of Department FMSS Oracle 11i Re-implementation                              Final Audit Report

ED-OIG/A11F0005                         Enclosure F: O11ie Performance Measurement Log as of January 19, 2006





                     Performance Measurement Log


Monitor project risks and determine mitigation strategies in a timely manner
Performance Target                                                                                           Results
                                                Oct-04         Nov-04            Dec-04             Jan-05             Feb-05   Mar-05     Apr-05   May-05
Risk Log is reviewed bi-weekly by PMO            Yes             Yes               Yes               Yes                Yes       Yes       Yes      Yes
                                                Jun-05          Jul-05           Aug-05             Sep-05             Oct-05   Nov-05     Dec-05   Jan-06
                                                 Yes              Yes              Yes               Yes                Yes       Yes       Yes
Risks in the risk log are reviewed, as          Oct-04         Nov-04            Dec-04             Jan-05             Feb-05   Mar-05     Apr-05   May-05
scheduled, during the Project Status             4-Oct          1-Nov            13-Dec             10-Jan             14-Feb   29-March   25-Apr   CRP 2
Meeting                                                                            (Q)                                             (Q)
                                                Jun-05          Jul-05           Aug-05             Sep-05             Oct-05    Nov-05    Dec-05   Jan-06
                                                27-June        18-July           29-Aug             26-Sep             CRP 3     7-Nov     5-Dec    13-Jan
                                             (Rescheduled)       (A)                                                              (Q)
All in-progress issues will have proposed       Oct-04         Nov-04            Dec-04             Jan-05             Feb-05   Mar-05     Apr-05   May-05
resolutions identified                          100%            100%               N/A              100%               100%      100%      100%     100%
                                                Jun-05          Jul-05           Aug-05             Sep-05             Oct-05   Nov-05     Dec-05   Jan-06
                                                 N/A            100%              100%              100%               100%       N/A      100%      100%




High percentage of the approved and high/must-priority requirements are implemented in the relevant timeframe
Performance Target                                                                        Results
                                                CRP 1           CRP 2            CRP 3              Pre-EP              EP
100% of Issues/Action Items from CRP        92% Signed-Off   97.8% Signed-    94% are either         0%
are resolved                                                      Off           Completed,      (of 2 issues)
                                                                             logged as a TAR,
                                                                                 or to be
                                                                              addressed in EP

                                            Post-
                                            Production
100% of “Must” and "Approved"
Requirements are implemented




High degree of FMSS Oracle 11i up-time
Performance Target                                                                        Results
                                                Oct-06         Nov-06            Dec-06
Percent of time FMSS Oracle 11i is
available is 95% or greater




                                                                                                                                                             F.3
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports





                   MAJOR IV&V REPORTS DELIVERED DURING 

            THE ANALYZE AND DESIGN/BUILD PHASES OF DEVELOPMENT




           Tier II Conference Room Pilot 1 Readiness Report, August 27, 2004
           Tier II Conference Room Pilot 1 Assessment Report, October 14, 2004
           Tier II Assessment Report, December 20, 2004
           Tier IV Conference Room Pilot 2 Readiness Report, May 13, 2005
           Tier IV Conference Room Pilot 2 Assessment Report, June 17, 2005
           Tier IV Post Conference Room Pilot 2 Program Assessment Report, June 24, 2005
           Tier IV Conference Room Pilot 3 Readiness Report, October 14, 2005
           Tier IV Conference Room Pilot 3 Assessment Report, December 05, 2005
           Tier IV Post Conference Room Pilot 3 Program Assessment Report, January 23, 2006
           Tier IV Enterprise Pilot Assessment Report, March 28, 2006


        The IV&V contractor also delivered weekly and monthly status reports and other
        assessments.




                                                                                                        G.1
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports





                        ANNOTATED EXCERPTS FROM IV&V REPORTS


IV&V Finding of Ineffective Requirements Management.

Throughout all phases of development, IV&V repeatedly expressed concerns about requirements
management problems and their adverse impact on system development progress. For example:

During Tier II, IV&V reported:1

          Generally, the management of requirements by the IC for activities
          [through] CRP1 [has] not been conducted in a manner consistent with the
          guidelines of Capability Maturity Model Integration (CMMI) for the management
          of requirements. . . . The lack of requirements traceability for the CRP activities is
          a significant flaw. The IC should correct these requirements traceability
          weaknesses immediately to avoid the risk of moving to the next project Tier
          without the appropriate linkages between requirements and O11ie Project work
          products and activities.

IV&V also recommended:

          Future CRPs should be planned with un-ambiguous entry and exit criteria to
          ensure that the Department’s requirements are being met and that the CRP goals
          and objectives are unified with the overall project plan, project objectives and
          vision.

Transition from Tier II to Tier IV. IV&V also reported:2

          The O11ie Change Control Board (OCCB) has not been formally established to
          support the review process required for change requests. Individuals selected to
          serve on this board need to be formally identified and made aware of the Board’s
          planned activities. The OCCB will be required to take action in the near future on
          requirements change requests. In addition, the requirements change control
          process has not been established. As a result, there are no controls, procedures, or
          processes in place to manage and track the requirements that have been gathered
          since the February 14th baseline.

Post CRP2. IV&V reported improvements:3

          CRP2 has included significantly more focus on requirements traceability than for
          CRP1. This focus on requirements traceability is a very positive trend that we
          expect to continue for the remaining duration of the O11ie Project.


1
    Tier II Conference Room Pilot 1 Assessment Report, October 14, 2004.
2
    IV&V contractor’s Monthly Status Report for February 2005.
3
    Tier IV Conference Room Pilot 2 Assessment Report, June 17, 2005.

                                                                                                        G.2
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports


However, IV&V also noted the following traceability problems:

        Generally, all CRP2 scripts4 that we have been able to examine have been mapped
        to requirements. However, the mapping of requirements to scripts is limited to [a
        four digit unique identification (ID) number]. As a result, it was very difficult, if
        not impossible, for CRP2 participants or session leaders to ascertain specifically
        which requirements were being demonstrated in specific steps of the CRP scripts.
        . . . Additionally, there are requirements in the CRP2 documentation that are
        linked to scripts but have no relevance to the script itself.

Post EP. IV&V reported continued traceability problems:5

        EP sessions involved limited references to the specific descriptions of the
        requirements associated with specific EP scripts. EP scripts contained unique ID
        numbers for requirements, but did not include the detailed description information
        required to determine if the processes being demonstrated completely satisfied the
        requirement. Consequently, the detailed validation of requirements to the system
        configuration and functionality will have to occur primarily during the
        Application and Integration (A&I) Testing and User Acceptance Testing (UAT)
        cycles.” As of June 2006, the project’s Risk Log indicated that IV&V had
        identified “patterns of inaccurate and/or otherwise questionable mappings of
        requirements to the A&I Test scripts.

IV&V Finding: Slow System Development Progress During Design/Build Phase.

Throughout the Design/Build phase of system development, IV&V produced statistics for the
project management team’s consideration. These statistics identified slow progress towards
system design & build completion. For example:

Post CRP2. IV&V reported:6

        As part of our assessment work, we also performed a detailed review of the
        number of Department of Education specific requirements that are mapped to
        scripts for selected modules and business areas. These modules and/or business
        process areas include General Ledger, Budget Execution and Accounts
        Receivable. The results of this analysis are as follows:

        General Ledger: There are a total of 199 approved General Ledger
        requirements. Of this number, 64 are JFMIP requirements.7 Thus, 135 General
        Ledger requirements are DoED [Department] specific. Of the 135 DoED specific
        requirements, only 12 or 9% have been mapped to General Ledger scripts for
        CRP2.

4
  Auditor Note: pilot scripts demonstrate and test scenarios. 

5
  Tier IV Enterprise Pilot Assessment Report, March 28, 2006. 

6
  Tier IV Conference Room Pilot 2 Assessment Report, June 17, 2005. 

7
  Auditor note: The Financial Systems Integration Office (General Services Administration) was formerly known as 

the Joint Financial Management Improvement Program. JFMIP refers to a set of core financial system requirements. 


                                                                                                             G.3
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports


        Budget Execution: There are a total of 140 approved Budget Execution require-
        ments. Of this number, 47 are JFMIP requirements. Thus, 93 Budget Execution
        requirements are DoED specific. Of the 93 DoED specific requirements, 35 or
        38% have been mapped to Budget Execution scripts for CRP2.

        Accounts Receivable: There are a total of 100 approved Accounts Receivable
        requirements. Of this number, 48 are JFMIP requirements. Thus, 52 Accounts
        Receivable requirements are DoED specific. Of the 52 DoED specific
        requirements, 12 or 23% have been mapped to the scripts for CRP2.

        The overall results of this analysis indicate that the vast majority of the DoED
        specific requirements will have to be addressed in future CRPs, EP and/or testing
        cycles.

Post CRP3. IV&V reported:8

        During the period, we continued our analysis of requirements. Analysis was
        limited to requirements with a must priority and an approved status,9 as these
        requirements are to be manifested in the October 1, 2006 production system. This
        analysis provides insight into the number of requirements that have been
        demonstrated in CRPs, and requirements that have not yet been mapped (traced)
        to CRP scripts or other project deliverables and work products. This will also
        help to determine the appropriate disposition of the unmapped requirements
        including establishing priorities for pursuing requirements traceability objectives.

The results of this analysis are reproduced below:

         Mapping of “Must & Approved” Non-JFMIP Requirements10 – Extensions and Interfaces

                          80
                                                                           M a p p e d to C R P
                          70
                                                                           Not M apped
                          60

                          50

                          40

                          30

                          20

                          10

                           0
                                 E x te n s io n s    In t e r f a c e s




                           Category                  Extensions                              Interfaces
                           Mapped                        31                                      16
                          Not Mapped                     72                                      49




8
   IV&V contractor’s Monthly Status Report for November 2005. 

9
   According to the IV&V report, the analysis was based on the list of must and approved requirements as of 9/30/05.

10
    The “Non-JFMIP” category refers to Department-unique requirements. 


                                                                                                                 G.4
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports


                                         “Must & Approved” Requirements
          600
                                                                                   Mapped to CRP

          500                                                                      Not Mapped


          400



          300



          200



          100



            0
                Must Approved         JFMIP           Non JFMIP    JFMIP Cots   JFMIP Extensions    Reports




       Category        Requireme              JFMIP         Non           JFMIP                JFMIP          Report
                          nts                              JFMIP          COTS                Extensions         s
        Mapped            239                  115          124             39                    2             48
          Not             553                  135          418             51                    2            114
        Mapped
         Total                  792

Post EP. IV&V reported:11

          At the close of EP, there has been some improvement in the absolute number of
          requirements with a must/approved status that have been mapped to either CRP or
          EP scripts. Approximately, 320 requirements out of a total of 792 or 40% of
          requirements with must/approve status were mapped to either CRP or EP scripts.
          [A total of] 472 requirements with a must/approved status were not associated
          with specific CRP or EP scripts and should be addressed with A&I test scripts or
          linked to specific project artifacts, such as design documents, configuration
          documents, etc.

IV&V Finding of Incorrect or Ambiguous Work “Complete” Status.

IV&V also brought up a concern that the reported “percent complete” for tasks and issues did not
always reflect actual progress. For example:

Post CRP2. IV&V reported:12

           … Process Diagrams being prepared … include the narrative sections that will
          contain the detailed descriptions of the activities that are occurring at each step of
          the processes . . . [, and] work on the business processes has been ongoing for
          several weeks without progressing to this step. Essentially, the process diagrams
          are substantially incomplete without this information, . . . [and] the percent

11
     Tier IV Enterprise Pilot Assessment Report, March 28, 2006.
12
     IV&V contractor’s Monthly Status Report for February 2005.

                                                                                                                       G.5
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports



         complete that has been reported . . . needs to be reviewed to correct discrepancies
         in the status of the work. Currently . . . there are several flows that are reported as
         being 100% complete. None of the business process flows should be considered
         more than 50% complete without the detailed narrative section.

         Also, in performing some additional analysis regarding the status of the actual
         CRP2 instance, we have determined that there are major differences in the code
         packages that have been installed in the actual CRP2 instance when compared to
         the Patch, Development and Sandbox instances. This condition indicates that the
         CRP2 instance did not contain the software components (migrated code) required
         to support planned CRP2 activities. This information conflicts with data in the
         Integration Contractor project plan, which indicates that most of the work related
         to the migration of specific code packages for CRP2 is 100% complete.
         Clarification is needed regarding the intent of these statuses in the plan. For our
         analysis, a 4/30/05 version of the IC’s plan was used.

Post CRP3. IV&V reported:13

         . . . we are concerned about the manner in which ‘complete’ statuses are assigned
         to issues.14 Specifically, under the current process a status of ‘complete’ is
         assigned to issues at the point where the [implementation contractor] has made a
         recommendation to the Department on the disposition of an issue. However
         under this scenario, all of the work required to fully address an issue may not have
         been performed by all responsible parties. As a result, there is a risk that issues
         marked as ‘complete’ could be overlooked and thus not followed up on in a
         timely manner. [IV&V] recommended that the ‘complete’ status be reserved for
         issues wherein all necessary follow up actions have been finished.

IV&V Finding of Lack of Adequate Performance Measures.

IV&V also repeatedly expressed concerns over the lack of completeness, and the general
inadequacy of the performance measures to support project monitoring. For example:

During Tier II, IV&V reported:15

         At various times during Tier II we have expressed concerns about the
         completeness and adequacy of the Performance Measures for the O11ie Project.
         During the preparation of this report we reviewed the December 8, 2004 version
         of the Performance Measures Log and concluded that our basic concerns about
         the performance measures and performance targets are still valid. The IV&V
         Team’s opinion at this time is that the current listing of Performance Measures is
         inadequate for a project of the size and complexity of the O11ie Project.

13
   Tier IV Conference Room Pilot 3 Assessment Report, December 5, 2005. 

14
   Auditor note: a log was used to capture the relevant issues and action items generated during CRP3 sessions. 

15
   Tier II Assessment Report, December 20, 2004. 


                                                                                                                    G.6
Effectiveness of Department FMSS Oracle 11i Re-implementation                             Final Audit Report 

ED-OIG/A11F0005                                           Enclosure G: Annotated Excerpts From IV&V Reports



Post CRP2. IV&V reported:16

           The IV&V Team has expressed concerns about the completeness and adequacy of
           the Performance Measures for the O11ie Project throughout Tier II via a variety
           of mediums [sic], which included direct dialogues with the project management,
           detailed written comments, extensive discussions with the PMO Team, and
           discussion in the IV&V Tier II Assessment Report. Our concerns about the O11ie
           Project Performance Measures have continued up to this point in Tier IV.” In
           addition: “A review of the most current version of the Performance Measurement
           Log shows very little change in the condition of the performance measures, since
           the time of our last review. . . . In summary, our concerns are as follows:

             •	 The Performance Measures lack a sufficient number of tactically relevant
                measures.
             •	 The performance targets listed do not appear to be consistent with the
                Operationalized Measurement Indicator.
             •	 There are numerous performance targets listed that are too subjective or
                which lack a strong connection to critical project success factors.

     Post CRP3. IV&V reported:17

           There has been no change of note to the performance measurement component of
           the project since the last IV&V assessment report.




16
     Tier IV Post Conference Room Pilot 2 Program Assessment Report, June 24, 2005.
17
     Tier IV Post Conference Room Pilot 3 Program Assessment Report, January 23, 2006.

                                                                                                        G.7
Effectiveness of Department FMSS Oracle IIi Re-implementation                               Final Audit Report 

ED-OIG/AIIF0005                                          Appendix A: Department Response to Draft Audit Report 





                            UNITED STATES DEPARTMENT OF EDUCATION

                                                   OFFICE OF THE SECRETARY



                                                            April 6, 2007

  MEMORANDUM


  TO: 	            David Cole
                   Director, Infonnation Technology Audits Division
                   Office of Inspector General


  FROM: 	          David L. Dunpl
                   Chief of Staff)

  SUBJECT: 	       Draft Audit Report - Effectiveness of the Department's Financial Management
                   Support System Oracle 11 iRe-Implementation
                   Control Number ED-OIG/AIIF0005

  Thank you for the opportunity to comment on the draft audit report, entitled "Effectiveness of the
  Depattment's Financial Management Support System Oracle IIi Re-Implementation," ED­
  OIGI AIIF0005. The Department finds your audit recommendations extremely useful and will use
  them to improve the Department's overall effectiveness in system implementations. While we
  agree that there were areas for improvement in the re-implementation project, and we concur with
  many of the findings and recommendations, we are not able to concur on all of the findings and
  recommendations as explained below.

  Background

  In May 2002, the Office of the Chief Financial Officer initiated the re-implementation project
  (Ollie) of the Oracle Federal Financials applications (Oracle Iii) as the Department's financial
  management system. This project was deemed necessary to apply improved features available in
  Oracle Iii that were not included in the legacy version of the product. The vendor made many of
  the improvements incorporated in the Oracle 11 i version in direct response to the Department's
  requests. Implementing Oracle IIi also allowed the Department to remain current with the vendor's
  version of the application, allowing for continued vendor support of the product. The project was
  successfully completed on schedule and within budget in December 2006.

  The project was composed of four tiers. Tier I consisted of assessing the impact of changes in the
  lli product compared to the 11.0.3 version and the benefits of implementing the product at the
  Department. Tier II detailed the strategy and approach for implementing the product. Tier III
  provided the detail plan for implementing the application. Finally, Tier IV comprised the actual
  implementation tasks. The Ollie Project consisted of 1,093 requirements; 3,635 tasks on the work
  breakdown structure; 81 risks tracked throughout the life of the project; and 26 perf0n11anCe
  measurements monitored.


                                       400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-0100

               Our mission i.e:; to ensure equal access to education and to promme educational excellence throughout the Nation.


                                                                                                                                   A.l
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 2 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

The Ollie project was identified as major, significant and high-risk because it involved a mission-
critical, Department-wide system that had a multi-year duration with significant costs. At the
completion of the project, and with the Oracle 11i application fully serving as the Department’s
financial management system, the project was removed as a high-risk investment.

The following are the Department’s responses to each finding.

Performance Measurement Baselines Were Insufficient and Inadequately Controlled

Intended Investment Outcomes Were Not Fully Established

        The Department generally concurs with this finding. The outcomes identified were
        generally at a high level and lacked specifics, e.g., report run times, transaction processing
        efficiency, business process improvements, etc. While the Project Management Team
        (PMT) did establish investment outcomes as detailed on Department and OMB budget
        request documents, and these documents were reviewed and approved by the Department’s
        oversight teams and by OMB, the Department acknowledges that the addition of lower level
        outcomes would have provided more measurable progress toward meeting the higher level
        measurements. Yet, for those outcomes provided, the Department has implemented the
        latest version of the software and has full product support from the vendor. The technical
        infrastructure was entirely upgraded to provide the optimum performance and efficiencies of
        the application and supporting hardware. Additionally, the Department re-engineered many
        of its business processes to provide better efficiencies to the end users (the re-engineering of
        IPAC processes and performing receipt functionality in the Financial Management Support
        System (FMSS) rather than in both FMSS and the Contracts and Purchasing Support System
        (CPSS), as examples).

        The Department would further point out that the example in the draft audit report of the
        financial statement enhancements being cost overruns is incorrect. The base requirements
        were that financial statement capabilities would be available at the time the system went
        live. The enhancements referred to in the draft audit report relate to functionality above and
        beyond the basic financial statement requirements. This new functionality provides
        automated footnote capabilities and an integrated adjustment module for reporting
        presentation entries that are not to be recorded in the general ledger. These enhancements
        were outside the scope of the original financial statement requirements and, therefore,
        necessitated a request for additional funding.

Performance Measures Selected Had Limited Value for Project Control

        The Department generally concurs with this finding. Several of the performance measures
        provided limited value to the project. This may have been due to the fact that they had only
        one measuring point, usually at the end of the project. Measures of this nature limit the time
        to perform any corrective actions. However, the PMT considered performance measures an
        important component for measuring the health and effectiveness of the project. Performance
        measures were captured at the start of the project during the project’s kick-off meeting.
                                                                                                           A.2
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 3 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

        Throughout the life of the project, measures were reviewed and new measures added as they
        were identified. There were 26 performance measures for the project that were grouped into
        several categories. Measures that allowed for interim reporting had targets identified and
        the project team measured against them when appropriate during the project. The
        performance measures of the Ollie project measured a variety of outcomes, including
        quantities, qualities, outputs and other statistics. Each measure was assigned a frequency for
        its measurement and the method of the measurement. The project’s performance measures
        were reviewed during the weekly Change Management Team meetings. With respect to the
        example used in the draft audit report, ‘95% of users will be trained by go-live,’ the actual
        percentage completed throughout the training period was monitored by the change
        management team and compared to the target goal. The Department acknowledges that
        these interim measures were not formally part of the project’s performance measurement
        process; however, they did exist and were monitored by the project team.

PMB Establishment and Maintenance Were Inadequate for Effective EVMS

        The Department generally concurs with this finding. The Oracle 11i Re-Implementation was
        the first project within OCFO/FSO to use an Earned Value Management System (EVMS)
        for measuring and tracking cost and schedule variances. As a result, the project team
        experienced a learning curve and adjustment period to effectively integrate this process into
        the project. Additionally, the contract for the 11i re-implementation was issued prior to the
        requirement for full ANSI Standard 748 compliant EVMS. Adding to the difficulties, the
        first three tiers of the project were fixed-priced. This contract type does not lend itself well
        to EVMS processes and analysis since they produce flawed results. Tier four was a Time
        and Materials (T&M) contract type and the project team was able to measure variances in
        schedule and costs using EVMS. Throughout tier four the project team became increasingly
        knowledgeable about EVMS and felt the results were accurate and reliable. The
        Implementation Contractor (IC) defined the work to be done in a Work Breakdown
        Structure (WBS) with over 3,600 elements that formed the basis for the Performance
        Measurement Baseline (PMB). The IC used Microsoft Project to schedule all tasks, with
        start and finish dates, as well as dependencies and durations. Discrete work packages data
        were summarized to control accounts where deliverables or milestones provided evidence of
        progress. Changes to the baseline were made with the PMT’s consent.

Uncontrolled Project Work Delays Increased Project Risks

        The Department generally concurs that the Oracle 11i Re-Implementation project
        experienced work delays that did increase risk to the project; however, the Department
        disagrees that delays were not controlled. Adjustments to project work schedules were
        made in an informed and controlled manner by the PMT. All adjustments to schedules were
        made within the overall project work schedule and did not negatively impact the established
        end date of the project. As pointed out in the draft audit report, these adjustments were
        made during the Conference Room Pilots (CRPs) in response to end-user requests for
        modifications to the application and/or processes based on demonstrations of the
        application. CRPs are controlled demonstrations of specific application functionality that
                                                                                                           A.3
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 4 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

        provide end-users the opportunity to experience the operations of the system and comment
        on its applicability to their needs. Since the FMSS is provided for all Education system
        users it is imperative that it be built in line with their requirements. To meet these
        requirements, the detailed schedule of the demonstrations had limited flexibility to allow the
        required end-users to participate in the CRPs and review the system functions. Adjustments
        to the schedule were also made to allow for the development of new scenarios or business
        processes based on end-user inputs. As identified in the draft audit report, the fast-track
        technique was used to recoup time spent on these development issues. Fast-tracking is an
        acceptable and appropriate technique to maintain project schedule. This technique, in
        conjunction with the controlled and planned adjustments to the project schedule, allowed the
        Ollie project to be successfully completed on time and within budget.


Project Contract Monitoring Was Inadequate

        The Department does not concur with this finding. All project deliverables prepared by the
        implementation contractor were submitted in draft form to the Department. The Department
        reviewed and provided comments to the contractor on each deliverable. The contractor
        updated the documents in accordance with the comments and the final document was
        submitted to the Department. The Department did not consider any of the integration
        contractor’s final deliverables to be unacceptable. The Department accepted all project
        deliverables; therefore, no improper payments were made to the contractor. The Tier III
        deliverables specifically cited (the Implementation Plan and Work Breakdown Structure)
        fully met the Department’s requirements. No instructions were given to the contractor that
        inappropriately changed the terms of the contract. The Contracting Officer (CO) was
        consulted on all issues that would alter the terms of the contract and only he provided
        direction to the contractor on such items. The project schedule was adjusted at various times
        to allow for new user requirements. These requirements may have caused the demonstration
        of specific functionality to be moved within or between CRPs. However, these adjustments
        were made with the approval of project management and had no impact on the project scope
        or the project schedule completion date.

        The Implementation Contractor (IC) Contracting Officer’s Representative (COR) monitored
        the contractor’s performance in consultation with the PMT to ensure compliance with the
        technical requirements of the contract. Had any issues with contractor performance
        requiring CO intervention arisen, the COR would have notified the CO so that the CO could
        act promptly to protect the Government’s rights under the contract. The COR did not
        authorize the modification of the terms of the contract, such as obligated cost or price,
        delivery, or scope of work, since these contract terms could only be altered through a formal
        contract modification signed by the CO.

        Further, the draft audit report’s assertion that the decision not to consolidate the FSA and
        OCFO systems effectively reduced the scope of work is incorrect. The impact assessment
        performed during the second tier of the project was the point at which this decision was
        made by the project’s Steering Committee. This was prior to the development of the PMB
                                                                                                           A.4
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 5 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

        in Tier III of the project. Additionally, the funding for the FSA’s portion was provided by
        FSA and was separate and never combined with OCFO’s funding. Therefore, the decision
        had no impact on the Oracle Re-Implementation project’s scope of work.

        OCFO personnel reviewed earned value each month utilizing the IC’s progress reports.
        Monthly progress/status reports from the IC met contract requirements. The IC monthly
        financial report showed their costs and progress against the agreed-upon schedule for the
        task. The report contained cumulative data from contract inception through the report
        month. The IC was questioned if any discrepancies appeared. Variances are to be expected
        in individual tasks, and the IC adequately explained any of significance (+/- 10%). No
        incentives have been paid to the IC to date. Overall, the actual cost of Tiers II through IV
        for the baseline contract was approximately $500k less than the original negotiated contract
        price.

IT Capital Planning and Investment Oversight Was Ineffective

IAMS was Unable to Identify and Correct Performance Problems

        The Department generally concurs with this finding. As previously stated, the Oracle 11i
        Re-Implementation project was the first OCFO/FSO project to use EVMS. The project team
        followed, to the best of its ability, EVMS guidelines when preparing and reporting project
        data. EVMS data were produced through the Department’s eCIPC reporting tool for OMB
        300B submissions. In addition, an independent analysis was produced by the project team.
        This independent analysis was considered necessary by the project team since EVMS
        reporting was new to OCFO/FSO. Both methods produced essentially the same results.
        When the project reported statistics considered outside the level of acceptance (+/- 10% for
        cost and schedule), effective and appropriate action was taken by the team to eliminate these
        variances. Because of the lack of experience with EVMS, individuals providing oversight
        for the project may not have been able to identify all potential performance problems. This
        was mitigated in part by producing two separate analyses of the data. As project team
        experience in using EVMS developed over the life of the project the project team was better
        able to manage the project with a focus on EVMS. Ultimately, the project was completed
        on schedule, within budget, and within accepted parameters for EVMS reporting.

Insufficient PIRWG and Committee Presentations

        The Department does not concur with this finding. OCFO stands by the accuracy and
        reliability of the information presented to the PIRWG and the Committee. The variance data
        provided in the presentations were based on the calculations of the eCIPC tool and
        independent project reporting. No significant project delays were reported to these groups
        because the project team did not experience or suspect them. In fact the project was
        completed on schedule and within budget. The example provided in the draft audit report
        indicates a significant problem in schedule variance with Enterprise Pilot Code Migration.
        However, Enterprise Pilot Code Migration did not create a significant problem, since it was
        simply the process of copying the CRP 3 environment code to the EP environment. The
                                                                                                           A.5
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 6 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

        variance associated with the Application and Integration Test Plans was a direct result of
        end user process changes. The test plans had to reflect these changes to this functionality to
        be valid. Even with schedule variances for the migration of code and test plans, the overall
        schedule variance for the project remained healthy and was reported as such to the project
        stakeholders.

The Department Did Not Make Full Use of IV&V Findings and Services for Effective Risk
Management

        The Department does not concur with this finding. The Independent Verification and
        Validation (IV&V) contractor served as an advisor and independent observer on all project
        activities. IV&V fully participated in all meetings of the project by providing their insights
        and recommendations to the team in a real-time manner. Traditionally, the IV&V team is
        separate and apart from the project team – they make their observations and report them to
        the PMT monthly. In a desire to make full use of the IV&V services and to have their input
        provide the most value to the project, the PMT decided to have the IV&V contractor
        engaged and provide their input more immediately. All project deliverables were reviewed
        and commented on by the IV&V team. Weekly meetings with the IV&V team highlighted
        the prior week’s activities and included their recommendations on aspects of the project.
        The project team considered all input from IV&V and, where it deemed appropriate and
        necessary, took action based on their input. The PMT did not concur with all IV&V
        findings and therefore no actions were taken on those items. Items were not acted on when
        the project team did not agree with the finding or judged that no action was warranted. The
        PMT did not record responses in writing to all IV&V observations; therefore, placing too
        much reliance on the IV&V reports may incorrectly lead one to believe that their
        observations were not adequately addressed. However, the project team discussed all IV&V
        issues and responded as it deemed necessary. OCFO agrees that a good practice would be to
        document the disposition of all recommendations by the IV&V contractor, whether agreed
        to or not.

The Department Did Not Provide OMB and Other Stakeholders An Accurate Assessment of
FMSS O11ie’s Performance Status

        The Department does not concur with this finding. OCFO stands by the information
        presented to the OMB and other stakeholders as being accurate and reliable. The variance
        data provided was based on the calculations of the eCIPC tool and independent project
        reporting. In fact, intentionally reporting false information to OMB or any oversight team
        would be unethical. The project team acted in a professional and ethical manner throughout
        the project. No significant project delays were reported to these groups because the project
        team did not experience or suspect them. This perception was eventually verified when the
        project was successfully completed on schedule and within budget.

The following are the Department’s responses to each recommendation.


                                                                                                           A.6
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 7 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

1. Direct the IRB Chair, the CFO and the CIO to jointly review and revise IT acquisition
policies and procedures, to:

• Strengthen the March 2006 EVMS Policy by developing EVMS monitoring procedures for
CORs, COs and project managers, and IAMS/CAM oversight.

        The Department concurs with this recommendation. As the responsibilities for establishing
        Department policies for Information Technology Information Management reside with the
        OCIO, the governing policy for addressing EVMS process improvements should remain
        within OCIO ACS Directive 3-108, “Information Technology Information Management
        (ITIM) and Software Acquisition Policy,” and the IT Investment Management Guide.
        Therefore, consideration will be given to revising the Department’s standing policies to
        expand language to address EVMS monitoring and surveillance implementation
        requirements, to include conducting Integrated Baseline Reviews.

• Modify ACS Directive OCFO: 2-108 to require a documented monitoring plan for all major
IT investments, commensurate with project risks (e.g., complexity, cost, length, lifecycle
stage); and make necessary adjustments to associated procedures.

        The Department concurs that monitoring plans should be required for major IT investments.
        Current Department procedures require that contract monitoring plans bee developed for all
        Department contracts, to the extent appropriate for the size and complexity of the contract
        requirement. To this end, OCFO ACS Directive 2-108, “Contract Monitoring for Program
        Officials,” will be amended to codify the current contract monitoring plan procedure into the
        Directive and refer users to the Department’s IT Investment Management Guide for further
        information on documenting monitoring plans for major IT investments. As stated in
        response to Recommendation 1, the Department’s IT policies will address EVMS
        monitoring and surveillance implementation requirements.

• Develop an IV&V services ACS Directive that establishes: (1) IV&V independence from the
project served; (2) documented disposition of significant or repeated IV&V findings; and (3)
periodic communication of IV&V findings to oversight bodies and project stakeholders at all
levels.

        (1) The Department does not concur with this recommendation. The IV&V role is to
        provide an objective assessment of project activities and processes and provide their
        recommendations to the PMT. The IV&V team were engaged in the Ollie project
        throughout the project lifecycle. The PMT must reserve the right to determine appropriate
        responses to the IV&V observations and recommendations based on experience and impact
        on the overall project. The IV&V team must work directly with the project team to provide
        immediate feedback, which would not be possible if they acted independently from the
        project served.

        (2) The Department concurs with this recommendation. Documented disposition of IV&V
        findings will be completed for all future OCFO/FSO projects. Additionally, all IV&V
                                                                                                           A.7
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 8 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

        findings will be documented with project management responses, both agreeing and
        disagreeing, and will not be limited to significant or repeated findings as recommended.

        (3) The Department concurs with this recommendation. At any point during a system
        implementation lifecycle the IV&V team can, and should, provide their findings to oversight
        bodies. In fact, the IV&V team for the Oracle 11i Re-Implementation project did provide
        their opinions to Department management when requested. The Department, through the
        CPIC process, will institute such reporting as standard operating procedure for project
        management. OCFO agrees that more direct contact between the IV&V contractor and the
        senior steering committee and PIRWG process would provide additional and useful
        oversight.

2. Direct the CFO to review the contract administration irregularities and project
management weaknesses identified in FSO and CAM and to take corrective actions to:

• Consult the Office of General Counsel regarding possible remedies to recover funds from the
Oracle 11i implementation contractor for improper incentive payments, unacceptable
deliverables, and reductions to the scope of work made without the formal authorization of
the CO.

        The Department does not concur with this recommendation. No incentive payments were
        made to the contractor; therefore, no improper incentive payments have been made. The
        Department did not consider any of the integration contractor’s deliverables to be
        unacceptable. The Department accepted all project deliverables. No reductions to the scope
        of the project were made. The project schedule was adjusted at various times to allow for
        new user requirements. These requirements caused the demonstration of specific
        functionality to be moved within or between CRPs; however, these adjustments were made
        with the approval of the project management and had no impact on project scope or project
        schedule completion date.

• Determine whether the project management problems we identified were unique to the
O11ie investment, and address any systemic problem that extends to other OCFO-FSO
investments.

        The Department does not concur with this recommendation. The Department disagrees that
        project management problems existed with the Oracle 11i Re-Implementation project and no
        other systemic problems extend to other OCFO/FSO investments. These investments are
        routinely reviewed by the Department’s oversight committees (i.e., PIRWG and IRB
        committees). Additionally, the CFO regularly reviews the status of all IT projects in
        OCFO/FSO and will continue to do so.

3. Direct the CFO and CIO to work jointly to: (1) coordinate CAM and IAMS oversight and
monitoring functions; and (2) develop a mandatory project and contract monitoring
curriculum that focuses on (a) establishing and carrying out a comprehensive contract
monitoring plan for major IT investments, (b) EVMS compliance monitoring and reviewing a
                                                                                                           A.8
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 9 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

contractor’s periodic status reports, and (c) using EVMS variances and forecasts to mitigate
project risks.

        (1) The Department concurs with this recommendation. See the Department’s response to
        recommendation 1.

        (2) The Department concurs with this recommendation. The Department will evaluate
        current government and commercially available EVMS training to determine if curricula
        already exist to address EVMS monitoring and surveillance requirements, and provide the
        training to Department contracts and program management staff.

4. Direct the IRB Chair to use established or revised CPIC Evaluate and Select procedures to
determine the best course of action for the FMSS investment, including:

• Obtain an independent assessment that identifies: (1) enhancements and maintenance likely
to be required over the next 3 years and their approximate cost, and (2) long-term financial
and technical impacts based on compatibility with interfacing systems and other pertinent
technical considerations.

        (1) The Department does not concur with this recommendation. Enhancement budgets for
        the next three years are based on known enhancements identified by system users and on
        historical records of typical enhancement expenditures after major system implementations.
        Additionally, all budgets, both current year and future years, must pass OCFO management,
        senior Department management and investment reviews and approvals. This ensures all
        required independence on their validity and necessity.

        (2) The Department does not concur with this recommendation. During the Oracle 11i re-
        implementation, the Department completed a full technology update of its hardware and
        database systems; therefore, no long-term financial and technical impacts are expected.

• Use the assessment’s results to reassess capital investment decisions and long term enterprise
architecture goals, particularly with respect to: (1) OMB’s Financial Management Line of
Business Shared Service Center policy; and (2) Department-wide technical and information
infrastructure goals (e.g., migration toward target enterprise architecture, feasibility of
original O11ie goal to establish a single system).

        The Department does not concur with this recommendation. Management from the offices
        of OCFO, OCIO and Budget Service approves capital investment decisions. Investment
        decisions concerning the FMSS are made consistent with the FMLoB initiative and with the
        overall Department enterprise architecture. (1) At this time, the Department is anticipating
        migrating to a shared service provided no earlier than 2010. (2) As previously stated, the
        Department has recently completed an update of all hardware and database systems
        supporting the Department’s enterprise architecture. The Department has decided that it is
        not feasible to establish a single system due to large volumes of data, impacts on system
        performance and the large number of scheduled tasks to be performed. These issues would
                                                                                                           A.9
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 10 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

        introduce significant risk to the entire Department with respect to meeting its fiduciary
        responsibilities and the demands of end users.

• Reinstate the FMSS high-risk status and apply surveillance consistent with OMB M-05-23,
Improving Information Technology (IT) Project Planning and Execution (August 2005).

        The Department does not concur with this recommendation. The FMSS was designated
        high-risk due to the Ollie project. With the completion of this project, the FMSS no longer
        was considered to be high-risk. In fact, in the December 2006 OMB scorecard, Education
        again received a green rating for financial management. The 11i system became operational
        in October 2006 and since that time it has not experienced any problematic unscheduled
        downtime or failures of critical business processes.

• Ensure OMB, GAO, and/or Congress receive sufficient and accurate information with
respect to FMSS O11i project performance and status.

        The Department concurs with this recommendation. A responsibility of the project manager
        is to provide an accurate assessment of the status of the project. However, the OCFO stands
        by the accuracy and reliability of the information presented to oversight bodies on the status
        of the project. The Oracle 11i Re-Implementation project was formally completed in
        December 2006. No future updates on project performance or status are planned.

5. Direct the IRB Chair, the CFO and the CIO to jointly improve IT acquisition and the ITIM
program to make oversight practices more effective by: (1) making the CPIC “Evaluate”
phase applicable at the conclusion of any major system enhancements; and (2) ensuring that
CPIC oversight functions are able to ascertain whether/verify that (a) tangible investment
outcomes are established prior to capital investment approval, (b) the EVMS effectively
complies with all essential ANSI/EIA-STD-748 guidelines, (c) the project has provided reliable
performance results information to all decision-makers and stakeholders sufficient for
informed decision-making, (d) the disposition of IV&V findings is adequate and risks
resulting from disposition are acceptable, and (e) project managers generally follow project
plans and departures are documented and resulting risks are understood and acceptable.

        The Department concurs with this recommendation. Investments must be able to
        demonstrate improvements compared to the systems they replace. These improvements may
        take many different forms, as in the case of the Ollie project where processes have been
        streamlined, internal controls have been strengthened, reconciliations are faster and easier
        and the product is the most updated version with the full support of the vendor. EVMS is an
        important component of projects and it must be executed in ways that comply with
        guidance. IV&V findings should be reviewed and acted upon as deemed appropriate by
        project management. Project managers must follow project plans and monitor all risks
        associated with the investment.




                                                                                                          A.10
Effectiveness of Department FMSS Oracle 11i Re-implementation                               Final Audit Report 

ED-OIG/A11F0005                                           Appendix A: Department Response to Draft Audit Report


Page 11 - Oracle 11i Re-Implementation Project ED-OIG/A11F0005

6. Direct the CIO to determine the feasibility and advisability of consolidating system
development infrastructures agency-wide and offering centralized expert support to
development projects.

        The Department concurs with this recommendation. Feasibility studies of the consolidation
        of system development efforts are reasonable and proper. For the Ollie project, the CIO was
        a full partner in the development of the necessary system infrastructure for the project and
        participated in all decisions affecting the final solution.

Thank you for this opportunity to respond. Attached is the proposed Corrective Action Plan. If
you have any questions, please contact Danny Harris, Deputy Chief Financial Officer, at (202) 401-
0896.


Attachment – Corrective Action Plan




                                                                                                          A.11
Effectiveness of Department FMSS O11i Re-Implementation                            Final Audit Report

ED-OIG/A11F0005                                    Appendix B: Management Comments and OIG Response


                          Management Comments and OIG Response

In its response, management provided nonconcurring comments to the report findings. The
following summarizes management’s additional comments and OIG response to these
comments.

Management Comments to Project Contract Monitoring Was Inadequate

Management stated that the draft audit report’s assertion that the decision not to consolidate the
FSA and OCFO systems effectively reduced the scope of work is incorrect. Also management
stated that funding for the FSA’s portion was provided by FSA and was separate and never
combined with OCFO’s funding. Therefore the decision had no impact on the re-implementation
project’s scope of work.

OIG’s Response

As discussed in the draft audit report, there was no contract modification for the scope after the
decision not to consolidate both the FSA and OCFO financial systems. Before the Department
abandoned its goal of consolidating the FSA’s FMS and OCFO’s FMSS systems, there were
approximately 2,125 requirement records. After deciding that FSA would instead “upgrade-in-
place” and OCFO would conduct a “re-implementation,” on February 11, 2005, approximately
1164 requirements were dropped and the remaining 961 formed the FMSS implementation
requirement “Baseline,” a significant decrease in implementation scope. As a result, the scope of
the requirements changed thereby requiring a formal contract modification to recognize the drop
in requirements from 2125 to 961 (45% of original requirements). In addition, the Department
states that “variances are to be expected in individual tasks, and the IC adequately explained any
significance (+/- 10%).” Although the Department makes this statement, as shown in our draft
report, not all cost accounts with variances at or above 10% were explained. In addition, for
those cost accounts that were explained, not all explanations provided a complete explanation for
the variance and not all cost accounts provided a mitigation strategy. Therefore, we stand by our
finding and conclusion.

Management Comments to Insufficient PIRWG and Committee Presentations

The Department did not concur with this finding. OCFO states the information presented to the
PIRWG and the Committee was accurate and reliable. No significant delays were reported
because the project team did not experience or suspect them. Management stated that the project
was completed on schedule and within budget. The draft report example provided indicates
significant problem in schedule and variance with Enterprise Pilot Code Migration. The
Department stated Enterprise Pilot Code Migration did not create a significant problem since it
was simply a process of copying the CRP3 environment code to the EP environment.

OIG’s Response

Although the Department claims that information presented to the PIRWG and Committee was
accurate and reliable, we believe that a finer level of detail would have provided the oversight

                                                                                                    B.1
Effectiveness of Department FMSS O11i Re-Implementation                            Final Audit Report

ED-OIG/A11F0005                                    Appendix B: Management Comments and OIG Response


entities a clearer picture of the project’s health and detailed status. One of the underlying
benefits of EVMS is to provide detailed management information on the status of a project. As
management has indicated, the re-implementation project was the first to attempt to adhere to
EVMS (even though OMB has required EVMS compliance since 2002). Because the project
team was not prepared to adhere to managing a project per EVMS, the project level details were
not captured. In addition, the Department states that “no significant project delays were reported
to the PIRWG and Committee because the project team did not experience or suspect them,”
however, management states “schedule variances” did exist and performance measures provided
limited project value and had only a single measuring point, usually at the end of a project,
which according to management, measures of this nature limit the time to perform any corrective
actions. In regards to the draft report example, the Enterprise Pilot Code Migration and the
application and integration test plans variances exceeded the 10% threshold; however, such
details are not visible when a project team reports at a higher measurement level. Therefore, we
stand by our finding and conclusion.




                                                                                                    B.2
